<html>
<title> - RAISING THE BAR: HOW ARE SCHOOLS MEASURING TEACHER PERFORMANCE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
    RAISING THE BAR: HOW ARE SCHOOLS MEASURING TEACHER PERFORMANCE?

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 28, 2013

                               __________

                            Serial No. 113-7

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
78-991                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f7e0ffd0f3e5e3e4f8f5fce0bef3fffdbe">[email&#160;protected]</a>  


                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

John Kline, Minnesota                Carolyn McCarthy, New York,
Thomas E. Petri, Wisconsin             Ranking Minority Member
Virginia Foxx, North Carolina        Robert C. ``Bobby'' Scott, 
Kenny Marchant, Texas                    Virginia
Duncan Hunter, California            Susan A. Davis, California
David P. Roe, Tennessee              Raul M. Grijalva, Arizona
Glenn Thompson, Pennsylvania         Marcia L. Fudge, Ohio
Martha Roby, Alabama                 Jared Polis, Colorado
Susan W. Brooks, Indiana             Gregorio Kilili Camacho Sablan,
                                       Northern Mariana Islands
                                     Frederica S. Wilson, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 28, 2013................................     1

Statement of Members:
    McCarthy, Hon. Carolyn, ranking minority member, Subcommittee 
      on Early Childhood, Elementary, and Secondary Education....     3
        Prepared statement of....................................     4
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Cantrell, Steve, chief research officer, Bill & Melinda Gates 
      Foundation.................................................     6
        Prepared statement of....................................     8
    Harper, Emanuel F. IV, French teacher, Herron High School, 
      Indianapolis, IN...........................................    19
        Prepared statement of....................................    20
    McIntyre, Dr. James P., Jr., superintendent, Knox County 
      Schools, Knoxville, TN.....................................    10
        Prepared statement of....................................    12
    Watson, Dr. Rodney E., chief human resources officer, Houston 
      Independent School District, Houston, TX...................    15
        Prepared statement of....................................    17

Additional Submissions:
    Chairman Rokita, question submitted for the record to:
        Mr. Cantrell.............................................    36
        Mr. Harper...............................................    37
        Dr. McIntyre.............................................    37
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, question submitted for the 
      record to:
        Mr. Cantrell.............................................    37
        Mr. Harper...............................................    37
        Dr. McIntyre.............................................    38
        Dr. Watson...............................................    38
    Witnesses responses to questions submitted:
        Mr. Cantrell.............................................    38
        Mr. Harper...............................................    39
        Dr. McIntyre.............................................    40
        Dr. Watson...............................................    41


    RAISING THE BAR: HOW ARE SCHOOLS MEASURING TEACHER PERFORMANCE?

                              ----------                              


                      Thursday, February 28, 2013

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:04 a.m., in 
room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Kline, Petri, Foxx, Roe, 
Thompson, McCarthy, Scott, Davis, Polis, and Sablan.
    Staff present: Heather Couri, Deputy Director of Education 
and Human Services Policy; Lindsay Fryer, Professional Staff 
Member; Nancy Locke, Chief Clerk/Assistant to the General 
Counsel; Krisann Pearce, General Counsel; Dan Shorts, 
Legislative Assistant; Nicole Sizemore, Deputy Press Secretary; 
Alex Sollberger, Communications Director; Alissa Strawcutter, 
Deputy Clerk; Brad Thomas, Senior Education Policy Advisor; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Jeremy Ayers, Minority Education Policy Advisor; Meg Benner, 
Minority Education Policy Advisor; Kelly Broughan, Minority 
Education Policy Associate; Jamie Fasteau, Minority Director of 
Education Policy; Brian Levin, Minority Deputy Press Secretary/
New Media Coordinator; Megan O'Reilly, Minority General 
Counsel; and Michael Zola, Minority Senior Counsel.
    Chairman Rokita. A quorum being present, the subcommittee 
will come to order.
    Good morning and welcome to our subcommittee hearing on 
teacher performance measurements. I would like to thank our 
witnesses for joining us today to share their valuable insight 
on ways states and local school districts are working to ensure 
effective educators in our classrooms.
    Teachers are one of the most influential factors on a 
student's academic success. I don't think I even need to say 
that. I am sure I am not the only one in this room that can 
remember the teachers who inspired and motivated us as 
children. And now that I am a father of two boys I am again 
seeing firsthand the difference an engaging teacher can make on 
a child's desire and ability to learn.
    Over the next few months we will renew our efforts to 
address the challenges facing K-12 schools, and what better 
place to start than to discuss how states, school districts, 
and schools are evaluating teachers and exploring more 
innovative strategies that can help improve the academic 
success of children?
    We all agree No Child Left Behind helped the nation take 
enormous steps toward a better education system, but we now 
recognize the law's shortfalls. One primary concern for many of 
us in this room is the way the law defined, quote-unquote--
``good teachers.''
    No Child Left Behind's rigid ``Highly Qualified Teacher'' 
provisions require educators to have a bachelor's degree, hold 
a state certification or license, and be able to demonstrate 
knowledge of the subject matter they plan to teach. That all 
sounds reasonable and great in theory, but in reality it meant 
schools were forced to value an educator's credentials over his 
or her ability to effectively and successfully teach children. 
And we all want qualified teachers in the classroom but we must 
also recognize that a teacher's excellence cannot be measured 
simply by degrees and diplomas alone.
    Recognizing the antiquated ``Highly Qualified Teacher'' 
requirements alone weren't helping schools attract the most 
promising teachers to the classroom, some states and school 
districts have been working to implement alternative methods to 
better evaluate the effectiveness of their teachers. In recent 
years a growing number of states and school districts have 
started developing new teacher evaluation systems that 
incorporate multiple measures and student performance data. Not 
only does this data help measure a teacher's success in the 
classroom, it also provides educators with valuable feedback to 
analyze and refine their methods.
    As a representative from the great state of Indiana, I am 
particularly pleased to welcome one of our Hoosier educators as 
a witness today and look forward to hearing his insights about 
the importance of teacher evaluation at the local level.
    In addition, in 2011 Tennessee became one of the first 
states in the country to implement a comprehensive student-
outcomes-based evaluation system. This system uses traditional 
measures, such as teacher observations and personal 
conferences, but places significant emphasis on student 
achievement data. Additionally, the new system prevents 
ineffective educators from staying in the classroom by directly 
addressing teacher tenure laws and the ``last in, first out'' 
policies that seem prevalent.
    Within 1 year of implementing its new evaluation system, 
Tennessee students made the biggest single-year jump in 
achievement ever recorded in that state.
    In my home state of Indiana, the general assembly approved 
legislation that calls upon school districts to create their 
own plans for annual performance evaluations or adopt one 
recommended by the state. The law sets requirements that every 
school must meet but provides districts with resources and 
flexibility to find the methods that will help them meet those 
requirements.
    This is similar to a proposal based--passed out of this 
committee last Congress as part of our ESEA reform efforts, and 
I hope we will again consider such innovative policies in the 
113th Congress.
    I am looking forward to a productive conversation this 
morning very similar, I hope, to our last committee hearing 
here with my colleagues and our witness panel about the way 
states and school districts are continuing to think outside of 
the box when it comes to recruiting, retaining, measuring, and 
supporting the most effective educators in the classroom.
    And now I will recognize my distinguished colleague, 
Carolyn McCarthy, for her opening remarks.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning and welcome to our subcommittee hearing on teacher 
performance measurements. I'd like to thank our witnesses for joining 
us today to share their valuable insight on ways states and local 
school districts are working to ensure effective educators are in the 
classroom.
    Teachers are one of the most influential factors on a student's 
academic success. I'm sure I'm not the only one in this room that can 
remember the teachers who inspired and motivated me as a child. And now 
that I'm a father of two boys, I am again seeing firsthand the 
difference an engaging teacher can make on a child's desire and ability 
to learn.
    Over the next few months, we will renew our efforts to address the 
challenges facing K-12 schools.
    What better place to start than to discuss how states, school 
districts, and schools are evaluating teachers and exploring more 
innovative strategies that can help improve the academic success of 
children.
    We all agree No Child Left Behind helped the nation take enormous 
steps toward a better education system, but we now recognize the law's 
shortfalls. One primary concern for many of us in this room is the way 
the law defined ``good'' teachers.
    No Child Left Behind's rigid ``Highly Qualified Teacher'' 
provisions require educators to have a bachelor's degree, hold a state 
certification or license, and be able to demonstrate knowledge of the 
subject matter they plan to teach. That all sounds great in theory, but 
in reality it meant schools were forced to value an educator's 
credentials over his or her ability to effectively and successfully 
teach our children.
    We all want well-qualified teachers in the classroom, but we must 
also recognize that a teacher's excellence cannot be measured by 
degrees and diplomas.
    Recognizing the antiquated ``Highly Qualified Teacher'' 
requirements alone weren't helping schools attract the most promising 
teachers to the classroom, some states and school districts have been 
working to implement alternative methods to better evaluate the 
effectiveness of their teachers.
    In recent years, a growing number of states and school districts 
have started developing new teacher evaluation systems that incorporate 
multiple measures and student performance data.Not only does this data 
help measure a teacher's success in the classroom, it also provides 
educators with valuable feedback to analyze and refine their methods. 
As a representative from the great state of Indiana, I am particularly 
pleased to welcome one of our Hoosier educators as a witness today, and 
look forward to hearing his insights about the importance of teacher 
evaluation at the local level.
    In 2011, Tennessee became one of the first states in the country to 
implement a comprehensive student-outcomes based evaluation system. 
This system uses traditional measures such as teacher observations and 
personal conferences, but places significant emphasis on student 
achievement data.
                                 ______
                                 
    Mrs. McCarthy. Thank you, Mr. Chairman. And I want to thank 
you again for calling this hearing. It is very important as we 
go forward.
    So, I also want to thank our panel of witnesses, especially 
bright and early. Usually we start around 10 and that 
difference one of--1 hour is appreciated by all of us on the 
last day.
    I do want to make a note that even before we dive into 
teacher performance and evaluation we have a duty to revisit 
teacher standards in general to ensure the best and the 
brightest are educating our children. This commitment begins at 
a very early age, and I am currently working on legislation 
that will encourage states to follow best practices in early 
education and commit to hiring teachers with at least a 
bachelor's degree.
    With that being said, it goes without saying that 
evaluating teacher performance is a tricky issue. There are 
many factors aside from student achievement that come into play 
when judging a teacher's performance. These factors include but 
not are limited to: classroom environment, classroom resources, 
or school leader involvement. Let me break down what I mean by 
each of these.
    Classroom environment: Where schools are located and the 
make-up of the class all play important factors when we discuss 
teachers' performance. Classroom resources: How much funding 
local schools are getting, both federally and locally, affect 
how teachers are able to do their work.
    Last but not least, school leader involvement, too: Too 
often our school leadership gets off the hook in 
underperforming schools. We need to take a look at how teachers 
are being supported by their school boards and administrators 
when conducting any evaluation of performance.
    While taking these three factors into consideration we must 
also recognize several important points about evaluation. 
Evaluations must be done frequently, with discretion, and with 
the input and corroboration of teachers. Evaluation systems 
must allow for teacher improvement and they must be refreshed 
periodically to ensure their effectiveness.
    Additionally, evaluators should be familiar with the 
localities they are working in. As with most issues involving 
school performance and standards, there must be a reasonable 
level of flexibility for states and localities to provide 
effective services.
    The other week, when this subcommittee, as the chairman had 
mentioned, addressing the issue of technology and innovation in 
the classrooms, we heard testimony from Mr. Smith from 
Rocketship Education. He noted that in his classroom, teachers 
receive real-time feedback through the headset. I am not 
suggesting that this is the solution for every classroom, but 
it is precisely that kind of outside-of-the-box thinking that 
needs to be explored when it comes to teacher evaluation.
    Any legislation that this committee endorses should provide 
a measure of flexibility. One bill I plan on reintroducing this 
Congress that provides such flexibility is the Teacher and the 
Principal Improvement Act. The bill provides grants to 
localities for the purpose of professional development and 
evaluation.
    We, as members of Congress, do not have all the answers. We 
rely on testimony, our own professional experiences, and our 
beliefs to guide us through this process.
    I look forward to hearing from the panel and thank you, 
again.
    Mr. Chairman, I yield back.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary, and Secondary Education

    Thank you Mr. Chairman for holding another important hearing geared 
toward improving our schools nationwide.
    I also want to thank our panel of witnesses for joining us bright 
and early today--we all appreciate your time.
    I do want to make a note that even before we dive into teacher 
performance and evaluation, we have a duty to revisit teacher standards 
in general to ensure the best and brightest are educating our children.
    This commitment begins at an early age and I am currently working 
on legislation that will encourage states to follow best practices in 
early education and commit to hiring teachers with at least a 
bachelor's degree.
    With that said, it goes without saying that evaluating teacher 
performance is a tricky issue.
    There are many factors aside from student achievement that come 
into play when judging a teacher's performance.
    These factors include, but are not limited to:
    <bullet> Classroom Environment;
    <bullet> Classroom Resources;
    <bullet> and School Leader Involvement.
    Let me breakdown what I mean by each of these.
    Classroom Environment: where schools are located and the makeup of 
the class all play important factors when we discuss teacher 
performance.
    Classroom Resources: how much funding local schools are getting 
both federally and locally effect how teachers are able to do their 
work.
    Last but not least, School Leader Involvement: too often our school 
leadership gets off the hook in underperforming schools.
    We need to take a look at how teachers are being supported by their 
school boards and administrators when conducting any evaluation of 
performance.
    While taking these three factors into consideration, we must also 
recognize several important points about evaluation.
    Evaluation systems must be done frequently, with discretion and 
with the input and collaboration of teachers.
    Evaluation systems must allow for teacher improvement and they must 
be refreshed periodically to ensure their effectiveness.
    Additionally, evaluators should be familiar with the localities 
they are working in.
    As with most issues involving school performance and standards--
there must be a reasonable level of flexibility for states and 
localities to provide effective services.
    The other week, when this Subcommittee was addressing the issue of 
technology and innovation in classrooms, we heard testimony from Mr. 
Smith from Rocketship Education.
    He noted that in his classrooms teachers receive real-time feedback 
through a headset.
    I'm not suggesting that that is the solution for every classroom, 
but it is precisely that kind of outside of the box thinking that needs 
to be explored when it comes to teacher evaluation.
    Any legislation that this Committee endorses should provide for a 
measure of flexibility.
    One bill that I plan on reintroducing this Congress that provides 
such flexibility is the Teacher and Principal Improvement Act.
    The bill provides grants to localities for the purposes of 
professional development and evaluation.
    We, as Members of Congress, do not have all the answers.
    We rely on testimony, our own professional experiences and our 
beliefs to guide us through this process.
    I look forward to hearing from the panel.
    I yield back, thank you.
                                 ______
                                 
    Chairman Rokita. Thank you, Mrs. McCarthy.
    Pursuant to committee rule 7(c), all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record. And without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record, and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    And now it is my pleasure to introduce our distinguished 
panel of witnesses. First, Dr. Steve Cantrell is the chief 
resource officer for research and evaluation at the Bill & 
Melinda Gates Foundation, where he manages grants and contracts 
focused on teaching effectiveness, including the Measures of 
Effective Teaching, the MET project.
    Thank you for being here.
    And I will turn to Dr. Roe to introduce our next witness.
    Mr. Roe. Thank you, Mr. Chairman.
    And appropriately dressed in his orange tie from Knoxville, 
Tennessee, would be Dr. Jim McIntyre, superintendent of the 
Knoxville County School System. Dr. McIntyre served as the 
superintendent of the Knox County Schools--does serve.
    Prior to his appointment in 2008 Dr. McIntyre served as the 
budget director and chief operating officer for the Boston 
Public School System. During Dr. McIntyre's tenure the Boston 
Public Schools were named one of the top-performing urban 
school systems in the nation.
    Earlier in his career he taught English, anatomy, and 
physical education at the Vincent Gray Alternative High School 
in East St. Louis, Illinois. Dr. McIntyre has served on 
numerous state-level working groups aimed at enhancing public 
education and was selected as a fellow in the Broad Foundation 
Superintendents Academy, an intensive 10-month fellowship in 
urban public school superintendency.
    Welcome, Dr. McIntyre.
    Chairman Rokita. Thank you, Dr. Roe.
    We also have with us Dr. Rodney Watson. He is the chief of 
human resources for the Houston Independent School District. He 
has served in several positions related to juvenile corrections 
and student support services.
    Welcome.
    And finally, Mr. Emanuel Harper is a French teacher at the 
Herron High School, a public charter school in downtown 
Indianapolis that I am familiar with. He is also an adjunct 
faculty member at Marian University and a Teach Plus Policy 
fellow.
    Welcome.
    Before I recognize each of you to provide your testimony 
let me briefly explain our lighting system. You will each have 
5 minutes to present your testimony, and when you begin the 
light in front of you, as you might expect, will turn green. 
When there is 1 minute left it will be yellow, and then when 
your time is expired the light will be red.
    Sounds simple. Not necessarily always for us.
    At that point I ask you to wrap up your remarks as best as 
you are able, and after everyone has testified, members, of 
course, will each have 5 minutes to ask questions of the panel.
    So without further ado, I would like to recognize Dr. 
Cantrell for 5 minutes, sir?

  STATEMENT OF STEVE CANTRELL, CHIEF RESEARCH OFFICER, BILL & 
                    MELINDA GATES FOUNDATION

    Mr. Cantrell. Chairman Rokita, Ranking Member McCarthy, and 
committee members, I am Steve Cantrell, chief research officer 
at the Bill & Melinda Gates Foundation and co-director of the 
Measures of Effective Teaching project. Thank you for inviting 
me to testify about the MET project.
    The Measures of Effective Teaching project set out to 
answer one question: Is it possible to measure teaching 
effectiveness? The answer is yes.
    Drawing upon data collected from over 3,000 teachers at 300 
schools in six urban school districts, MET researchers, using a 
design that included randomly assigning students to teachers, 
demonstrated that effective teaching causes better learning. 
There are teachers whose students consistently learn more and 
teachers whose students consistently learn less.
    MET proved that these results are due to differences in 
teaching ability, not differences in student characteristics, 
and that more and less effective teachers can be identified 
through a combination of classroom observation, student 
surveys, and student assessments. Indeed, the combination of 
these measures does a far better job predicting teaching 
effectiveness in raising student performance than master's 
degrees or years of experience.
    Furthermore, these measures have the potential to provide 
teachers with much better feedback and more tailored supports. 
Given these results, it is now time for school systems to put 
into practice feedback and evaluation using multiple measures 
that teachers can trust.
    Alongside its findings, the MET project issued a second 
report entitled ``Feedback for Better Teaching.'' In it are 
nine principles to guide those who develop feedback and 
evaluations systems. We organized the nine principles into 
three categories: measure effective teaching, ensure high-
quality data, and invest in improvement.
    As school systems set out to measure effective teaching 
there are three important considerations. First, the measures 
should emerge from and help establish expectations for what 
constitutes effective teaching. Second, since no single measure 
can fully capture the complexity of teaching, states and 
districts should use multiple measures. And third, our research 
demonstrated that balance is best when deciding how much 
emphasis to place on any single measure.
    As school systems collect effectiveness data there are 
three important considerations for establishing and maintaining 
trust in the data. First, the measures should be valid 
predictors of student learning; second, the measurement should 
be reliable; and third, when data are used for accountability 
there should be a good match between the teacher's data and the 
students' data.
    As systems use effectiveness data it is important to 
understand and communicate that improvement is the goal. 
Relatively few teachers in the MET sample exhibited uniformly 
poor or uniformly great practice. We found that most teachers 
scored average, and yet they displayed different strengths and 
different weaknesses.
    Still, we know that average teaching is not good enough to 
get all of our students career and college ready, and so 
improvement is necessary. That most teachers are in the middle 
means that school systems need to share the responsibility to 
improve teaching by providing targeted and high-quality 
support.
    If teachers are to believe that the feedback and evaluation 
system is designed to help them improve then these three 
principles should be evident: First, a system built for 
improvement will not exaggerate small differences, but the 
performance categories will make meaningful distinctions 
between teachers. Teachers in adjacent categories should have 
demonstrably different impacts on student learning.
    Second, a system built for feedback and improvement will 
prioritize that in all its communications. And third, the 
measures of effective teaching naturally focus on classrooms; 
that information should be used at all levels of the system.
    How else would a school system know what professional 
development to offer which teachers and whether the 
professional development investments make a difference to 
improving teaching practice?
    In closing, I want to reiterate one important point: Better 
feedback and evaluation systems are essential to improving 
teaching and learning. If done well, in ways that teachers can 
trust, school systems can use this information to provide 
better supports which, in turn, will lead to better performance 
for students.
    Thank you again for the opportunity to present.
    [The statement of Dr. Cantrell follows:]

     Prepared Statement of Steve Cantrell, Chief Research Officer,
                    Bill & Melinda Gates Foundation

    Chairman Rokita, Ranking Member McCarthy, and committee members, I 
am Steve Cantrell, Chief Research Officer at the Bill & Melinda Gates 
Foundation and co-Director of the Measures of Effective Teaching 
project. Thank you for inviting me to testify about the MET project, a 
research study with great relevance for those who design and implement 
teacher evaluation and feedback systems.

Overview
    The Measures of Effective Teaching project set out to test if it is 
possible to measure teaching effectiveness using multiple measures of a 
teacher's performance. The answer is yes. Drawing upon data collected 
from nearly 3,000 teachers from over 300 schools across six urban 
school districts, MET researchers demonstrated that effective teaching 
causes better learning. There are teachers whose students consistently 
outperform their peers and teachers whose students consistently 
underperform their peers. MET proved that these results are due to 
differences in teaching ability rather than differences in student 
characteristics, and that more and less effective teachers can be 
identified through a combination of classroom observations, student 
surveys, and evidence of student learning. These measures have the 
potential to provide teachers with much better feedback and more 
tailored supports to improve their practice and to help their students 
succeed.

Data Collection and Findings
    The study looked at several dimensions of teaching. This is 
important because, as you know, teaching is complex and any single 
measure cannot fully reflect all important aspects of teaching. We 
measured four distinct aspects of teaching practice. We used two 
different student assessments to measure student learning. We used five 
different classroom observation protocols to assess the quality of 
classroom teaching (we are, of course, not recommending that districts 
adopt five different protocols). We tested teachers' ability to 
represent, identify, and increase students' conceptual understandings. 
Finally, we surveyed students themselves to assess how they experience 
the instructional environment.
    This work was conducted by some of the nation's finest researchers 
and technical assistance providers using state-of-the-art methods and 
technology. The researchers used a value-added model (VAM) to calculate 
the differences between the actual and predicted performance of a 
teacher's students on both state tests in math and ELA in grades 4 
through 9 and an additional more cognitively challenging assessment in 
the same grades and subjects. Classroom lessons were observed using 
panoramic video cameras and scored by highly trained and certified 
raters. The test of teacher knowledge and the student perception of the 
instructional environment survey both built upon more than a decade of 
prior research.
    Preliminary MET findings demonstrated that three measures--student 
assessments, classroom observations, and student surveys--helped 
predict whether teachers would raise the performance of future groups 
of students. Indeed, the combination of these measures does a far 
better job predicting which teachers will succeed in raising student 
performance than master's degrees and years of teaching experience.
    In the study's second year, researchers took the unusual step to 
randomly assign classes of students to teachers. We did this to see if 
teachers previously identified as more effective based on these 
measures actually caused students to learn more. Random assignment 
allowed researchers to isolate teaching effectiveness from any 
unmeasured student characteristics. Furthermore, the researchers 
detected no bias in the teacher effectiveness estimates, as long as the 
estimates were adjusted to account for differences in measured 
students' characteristics, such as prior performance and demographics.
    Final MET findings literally proved that effective teachers cause 
their students to learn more. Furthermore, the final findings showed 
that when combining measures into a single composite index, balanced 
weights are best. Composites that weigh state test results between 33% 
and 50% are more stable from year to year and better predict student 
performance on higher order assessments than composites that place more 
than 50% of the emphasis on state tests.

Nine Principles for Feedback and Evaluation Systems
    It is now time for school systems to put into practice MET's 
research findings by building and implementing feedback and evaluation 
systems using multiple measures that teachers can trust. The MET 
project's final report, Feedback for Better Teaching, provides 9 
principles to guide school systems as they develop feedback and 
evaluation systems. These 9 principles fall into three categories: 
Measure Effective Teaching, Ensure High Quality Data, and Invest in 
Improvement.
    As school systems set out to measure effective teaching, there are 
three important considerations. First, the measures should emerge from 
and help establish expectations for what constitutes effective teaching 
practice. Second, since no single measure of effectiveness can capture 
the full complexity of teaching, states and districts should use 
multiple measures. Third, our research demonstrated that balance is 
best when considering how much emphasis to place upon any one measure 
within a set of multiple measures.
    As school systems collect effectiveness data, there are three 
important considerations for establishing and maintaining trust in the 
data. First, the measures should be valid predictors of increased 
student learning. A school system enters into a bargain with its 
teachers when it adopts a measure within an evaluation system. The 
bargain states that if teachers work hard to improve on this measure, 
then their students will be better learners. It is this bargain that 
animates the feedback promise of multiple measures. By annually 
validating each measure, the school system guarantees that effort 
toward improving practice will not be wasted. Second, the measurement 
process should be reliable. Teachers have been especially wary of 
classroom observation processes because they perceive the process as 
potentially subjective. MET project research discovered three ways to 
increase reliability of classroom observation: test and certify raters, 
have at least two raters observe each teacher, and observe at least two 
lessons. Third, when data are used for accountability, it is essential 
that the data match the right teachers with the right students. If the 
data are mismatched then one could easily draw the wrong conclusion 
about the effectiveness of a given teacher or school.
    As school systems use effectiveness data, it is important to 
understand and communicate that improvement is the goal. Relatively few 
teachers in the MET sample exhibited uniformly poor or great practice 
across all measures. The data led us to conclude that most teachers are 
average, but for different reasons. Indeed, the majority of teachers 
scored very close to the mean on both the classroom observation 
instruments and on the survey of students' perceptions of the 
instructional environment. Yet, we know that average teaching is not 
good enough to help students achieve college and career success, so 
improvement is necessary. The realization that most teachers are in the 
middle means that school systems need to share the responsibility to 
improve teaching by providing targeted, high quality support.
    As school systems begin this work, there are three important 
considerations for signaling an improvement-focused feedback and 
evaluation system. First, a system built for improvement will not 
exaggerate small differences, but will use performance categories to 
make meaningful distinctions among teachers. Teachers in adjacent 
categories should have demonstrably different impacts on student 
learning. Otherwise, there is no need for the additional category. 
Second, a system built for improvement will prioritize feedback and 
support in all communications with stakeholders. Third, though measures 
of effective teaching naturally focus on classrooms, the data from 
these measures should be used for decision-making at all levels of the 
school system. The measures will indicate areas where teachers need 
better support and this data should be used to determine which 
professional development to offer to which teachers and whether the 
professional development investments in place are making a difference 
to improve teaching practice. Furthermore, the measures will indicate 
the schools where teaching is getting better over time. This seems like 
a natural indicator of the quality of instructional leadership.
    In closing, I want to reiterate one important point: Better 
evaluation and feedback systems are essential to improving teaching and 
learning. If done well, in ways that teachers can trust, these systems 
will enable better teacher supports which, in turn, will lead to better 
student performance.
    Thank you again for the opportunity to present.
               reports to accompany the written testimony
    ``Ensuring Fair and Reliable Measures of Effective Teaching: 
Culminating Findings from the MET Project's Three-Year Study,'' may be 
accessed at the following internet address:

                    http://metproject.org/downloads/
     MET_Ensuring_Fair_and_Reliable_Measures_Practitioner_Brief.pdf

    ``Feedback for Better Teaching: Nine Principles for Using Measures 
of Effective Teaching,'' may be accessed at the following Internet 
address:

                    http://metproject.org/downloads/
     MET_Feedback%20for%20Better%20Teaching_Principles%20Paper.pdf

                                 ______
                                 
    Chairman Rokita. Thank you, Doctor.
    Dr. McIntyre, you are recognized for 5 minutes.

 STATEMENT OF DR. JAMES P. MCINTYRE, JR., SUPERINTENDENT, KNOX 
                         COUNTY SCHOOLS

    Mr. McIntyre. Thank you, Chairman Rokita, Ranking Member 
McCarthy, members of the Subcommittee on Early Childhood, 
Elementary, and Secondary Education. Good morning. My name is 
Jim McIntyre and I have the privilege of serving as the 
superintendent of the Knox County Schools in the great state of 
Tennessee. I appreciate the opportunity to be here this morning 
to talk about this important issue.
    Over the last 5 years Tennessee has embarked on a 
remarkable journey of education reform and improvement. 
Radically higher academic standards, support for performance-
based pay, fundamentally restructured teacher tenure, and the 
introduction of an interest-based labor dialogue called 
``collaborative conferencing'' are but a few of the significant 
policy initiatives that have been put in place to enhance 
schooling for our children.
    But perhaps no other recent change has greater potential to 
improve the quality of education in our state than the adoption 
of a new teacher performance evaluation system.
    Tennessee law requires, now, a performance evaluation of 
every teacher every year, and at least 50 percent of that 
evaluation must be based on student academic outcomes. The 
Tennessee Educator Acceleration Model, or TEAM, as the standard 
evaluation model is called, is based on multiple measures of 
teacher effectiveness, incorporating elements of student 
academic results, multiple observations of classroom practice, 
and indicators of teacher professionalism.
    The TEAM evaluation system features an excellent classroom 
observation instrument, or rubric, as it is called, which 
begins with a detailed and research-based definition of good 
teaching and allows educators to understand how their 
instruction measures up against a very rigorous standard. The 
classroom observation protocol requires an objective assessment 
based solely on the evidence an evaluator observes in the 
classroom or during lesson-planning activities.
    Our new teacher evaluation system, now in its second year, 
has several important strengths. First, requiring every teacher 
to be evaluated every year based on multiple classroom 
observations connects the performance of our--the performance 
evaluation of our teachers to the day-to-day work of teaching 
students. This was not the case in the past, where performance 
evaluation was an isolated and infrequent event which had, at 
best, a marginal impact on student--excuse me, on instructional 
practice.
    Second, Tennessee's teacher performance evaluation system 
incorporates both student achievement results--and student 
achievement meaning measuring student learning at a point in 
time--as well as value added growth outcomes, which is 
measuring learning over a period of time, providing for a 
reasonable picture of teacher effectiveness.
    Third, I appreciate that a significant proportion of the 
teacher evaluation is now based on student outcomes. This makes 
sure that our focus is not just on teaching the material but 
ensuring that students actually learn it.
    Fourth, the approach we have taken in Knoxville, and 
generally taken across the state of Tennessee, has been to 
ensure that our evaluation system is a developmental process 
rather than a punitive one. That is, the evaluation system 
primarily is focused on helping our teachers to improve their 
instructional practice.
    Finally, I believe that our new evaluation system is well 
aligned to the more in-depth and rigorous academic standards 
that Tennessee has adopted and will better prepare our students 
for success in today's increasingly complex and competitive 
world.
    I believe the power of TEAM and any strong performance 
evaluation system is that it provides consistent and useful 
information regarding teacher effectiveness that can be 
utilized in human capital decisions, such as retention, 
termination, promotion, tenure, appointment to teacher 
leadership roles, and even compensation. In Knoxville we use 
the data from teacher evaluations to support all of these 
critical personnel decisions.
    TEAM data is used to identify teachers who might need 
additional assistance or teachers who could potentially be 
effective peer evaluators, what we call lead teachers. 
Evaluation information is an important factor in the decision 
to terminate chronically ineffectual teachers and it is used to 
discover potential candidates for consideration in school 
leadership roles.
    As I mentioned earlier, the state of Tennessee has 
significantly restructured teacher tenure. In the past, 
teachers were automatically granted tenure if they were on the 
job for 3 years and 1 day. Now, new teachers in Tennessee are 
not eligible for tenure until after 5 years of service and only 
if they perform at one of the highest two levels on the new 
evaluation system for 2 consecutive years.
    In the Knox County Schools we have also developed a 
strategic compensation, or performance-based pay, initiative 
that relies heavily on the data from the teacher evaluation 
system.
    In the Knox County--and our outcomes have been very good, 
and Chairman Rokita made reference to that. In the interest of 
time I will leave that to the questioning, but our outcomes 
have been very good for students, but our outcomes certainly 
aren't where we would like them to be yet. But I do believe 
that our teacher evaluation system is an important strategy in 
our efforts to improve the quality of public education in 
Knoxville and across the state of Tennessee.
    Tennessee's teacher evaluation system is not perfect but it 
is a vast improvement over our previous evaluation process, and 
I think it will prove to be a very valuable professional growth 
and instructional improvement tool.
    [The statement of Dr. McIntyre follows:]

   Prepared Statement of Dr. James P. McIntyre, Jr., Superintendent,
                   Knox County Schools, Knoxville, TN

    Chairman Rokita, Members of the Subcommittee on Early Childhood, 
Elementary, and Secondary Education, distinguished guests: My name is 
Jim McIntyre, and I have the privilege of serving as the Superintendent 
of the Knox County Schools in the great state of Tennessee. As the 
public school system for Knoxville and its surrounding area, the Knox 
County Schools is approximately the 75th largest school system in 
America, serving more than 55,000 students from urban, suburban and 
rural environments in 88 schools. I want to thank you for the 
opportunity to be here this morning to discuss the important topic of 
teacher performance evaluation.
    Over the past five years, Tennessee has embarked on a remarkable 
journey of education reform and improvement. Radically higher academic 
standards, support for performance-based pay, fundamentally 
restructured teacher tenure, and the introduction of an interest-based 
labor dialogue called ``collaborative conferencing'' are but a few of 
the significant policy initiatives that have been put in place to 
enhance schooling for our children. But perhaps no other recent change 
has greater potential to improve the quality of education in our state 
than the adoption of a new teacher performance evaluation system.
    Tennessee law now requires a performance evaluation of every 
teacher, every year; and at least fifty percent of that evaluation must 
be based on student academic outcomes. While district-specific plans 
that meet these parameters can be approved in Tennessee, the standard 
evaluation system is called the Tennessee Educator Acceleration Model 
or TEAM. The TEAM evaluation system is based on multiple measures of 
teacher effectiveness, incorporating elements of student academic 
results, multiple observations of classroom practice, and indicators of 
teacher professionalism. This year we will even pilot using some 
student feedback on a limited basis.
    The TEAM evaluation system features an excellent classroom 
observation instrument (or ``rubric'' as it is called), which begins 
with a detailed and research-based definition of good teaching, and 
allows educators to understand how their instruction measures up 
against a very rigorous standard. The rubric incorporates specific 
instructional practices that have been demonstrated to increase student 
achievement. The classroom observation protocol requires an objective 
assessment based solely on the evidence that an evaluator observes in 
the classroom or during lesson-planning activities.
    Our new teacher evaluation system, now in its second year, has 
several important strengths:
    First, requiring every teacher to be evaluated every year connects 
the performance evaluation to the day-to-day work of teaching students. 
In the past, teacher evaluations took place only twice every ten years 
in Tennessee, and teachers felt this process was oddly separate from 
their daily efforts in the classroom. Because it occurred so 
infrequently, the previous evaluation system had, at best, a marginal 
impact on instructional practice. With evaluation happening for every 
teacher each year, it is now part of the daily work of the school. 
Evaluation visits are routine and frequent, professional conversations 
center around the instructional strategies in the rubric, and the 
evaluation process can actually have a significant impact on improving 
the quality of teaching in our schools.
    Second, Tennessee's teacher performance evaluation system 
incorporates both student achievement and academic growth outcome 
measures. We are all familiar with student achievement data, which 
gauges where a student measures against a particular standard at a 
point in time, and is typically expressed as to whether the student is 
deemed ``proficient'' in the subject matter for a particular grade 
level.
    But Tennessee also includes ``value-added'' growth measures as a 
significant proportion of its evaluation system. Value-added growth, as 
the name implies, measures student learning over time, and whether the 
student exceeds or falls below the expected level of academic progress 
over a specified period of time, usually a school year. It therefore 
measures the amount of ``value'' added by the teacher (or the 
``effect'' of the teacher) over and above the expected academic growth. 
The Tennessee Value-Added Assessment System (TVAAS) is a well-regarded 
statistical model, refined over the past 20 years, that calculates the 
growth measures used in the TEAM evaluation system.
    Value--added growth is a useful measure to include in a teacher 
evaluation model, as it quantifies each student's learning over the 
period that the educator has taught them, but does not disadvantage the 
teacher if a student came to him or her behind academically. Value-
added growth, therefore, provides useful information regarding the 
effectiveness of the teacher. As quantitative measures of student 
academic success are increasingly integrated into teacher evaluation 
systems across the country, academic growth models will be critical in 
helping to ensure a fair, appropriate measurement of teacher 
effectiveness.
    Third, I appreciate that a significant proportion of the teacher's 
evaluation is now based on student outcomes. Our new performance 
evaluation system puts a premium not only on good teaching, but also on 
student learning. No longer is it acceptable for a teacher to say, 
``Well, I taught a great lesson, but my students just didn't learn 
it.'' The new evaluation system reinforces the urgency we all must feel 
in ensuring that our students meet the much more rigorous academic 
standards that we have put in place in Tennessee--and higher 
expectations for our teachers will help us get there.
    Fourth, the approach we have taken in Knoxville, and generally 
across the state of Tennessee has been to ensure that our evaluation 
system is a developmental process. That is, it is focused on helping 
our teachers to improve their instructional practice.
    I believe we must view teacher performance evaluation primarily as 
a professional growth tool, rather than purely as an accountability 
mechanism. Don't get me wrong, there will be teachers who will fail to 
secure tenure or who will be terminated because of issues surfaced 
through their performance evaluation. But for the overwhelming majority 
of our teachers, those who are solid performers to truly extraordinary 
educators, our evaluation system will be about continually improving 
and enhancing their instruction.
    Finally, I believe that our evaluation system is well aligned to 
the new Common Core academic standards that Tennessee and 44 other 
states have adopted. As a state-led initiative, Common Core will 
require our teachers to explore curricular topics in greater depth, and 
to facilitate important 21st century skills such as critical thinking, 
applying knowledge, and identifying creative solutions. Accordingly, 
the instructional rubric includes indicators that evaluate in-depth 
questioning, teaching different modes of thinking, and problem-
solving--exactly the types of skills that will prepare our students for 
success in today's rapidly changing world.
    The TEAM evaluation system, like any system, is not without 
challenges. Because our state assessments only cover grades 3-8 and 
certain subjects in high school, close to half of the teachers in 
Tennessee are without individual value-added growth data. Our state has 
committed to increasing the number of grades and subjects with such 
assessments, but this remains an important concern. For the most part, 
non-tested teachers share in the growth data for their whole school or 
particular discipline. I think this is a very appropriate short-term 
solution, as music and art teachers do influence the learning of all 
students in their elementary school, and certainly a great physics 
teacher will bolster the academic growth of her students in 
mathematics.
    The other challenge to highlight is ensuring that there is 
consistency of implementation of the evaluation system, and that we 
attain inter-rater reliability within schools, districts, and across 
the state. Our new evaluation system has significantly raised the bar 
for expectations of teacher effectiveness. If our evaluators are true 
to their training and consistently rigorous, then TEAM will provide an 
excellent assessment of teacher performance and an outstanding 
professional growth tool. If they are not, TEAM will be an expensive 
and time-consuming failure.
    Allow me to outline some of the ways that TEAM data is used. The 
power of TEAM, and any strong performance evaluation system, is that it 
provides consistent and useful information regarding teacher 
effectiveness that can be utilized in human capital decisions, such as 
retention, termination, promotion, tenure, appointment to teacher 
leadership roles, and even compensation. In Knoxville, we use the data 
from teacher evaluations to support all of those critical decisions.
    TEAM data is used to identify teachers who may need additional 
assistance, or those who could potentially be effective peer evaluators 
(Lead Teachers). Evaluation information is an important factor in the 
decision to terminate chronically ineffectual teachers, and it is used 
to discover potential candidates for consideration in school leadership 
roles.
    As I mentioned earlier, the state of Tennessee has significantly 
restructured teacher tenure. In the past, teachers were automatically 
granted tenure if they were on the job for three years and one day. It 
was a sometimes difficult structure because about two and a half years 
into a teacher's career, a principal had to decide whether to give a 
teacher tenure, essentially for the rest of their professional career, 
or fire them.
    Now, new teachers in Tennessee are not eligible for tenure until 
after five years of service, and only if they perform at one of the two 
highest levels (on a five point scale) on the evaluation system for two 
consecutive years. This is obviously a very different perspective on 
teacher tenure, but a worthy experiment in exploring if a radically 
different conceptualization of tenure will make a difference in teacher 
effectiveness.
    In the Knox County Schools, we have developed a strategic 
compensation (performance-based pay) initiative that relies heavily on 
the data from the teacher evaluation system. APEX (Achieve, Perform, 
EXcel), provides either $1,500 or $2,000 to our teachers based on great 
instruction, strong student academic results, teacher leadership and/or 
providing consistent high-quality instruction in our high needs 
schools. Data from the TEAM evaluation system determines 70% of the 
eligibility for this $3.6 million incentive pay program (funded in part 
through Race to the Top funding).
    One important but somewhat unique aspect of our implementation of 
the teacher evaluation system in Knoxville has been the development of 
a Lead Teacher role. Lead teachers are some of our most outstanding and 
respected classroom teachers who are paid an additional stipend to be 
observers and evaluators of their fellow educators.
    Our Lead Teachers are able to play an important leadership role 
while remaining as classroom teachers, and they lend credibility, 
instructional expertise, and much needed support to the teacher 
evaluation process. Utilizing peer evaluators can be a tricky business, 
but when done right--with the right people, training, and structure--it 
can be an incredibly powerful asset in the effective evaluation and 
development of teachers.
    One more important note on teacher evaluation systems: they are 
not, by themselves, a panacea. Rigorous, developmental teacher 
evaluation systems can be an important instructional improvement tool, 
but must be implemented in the context of a larger education reform and 
improvement effort.
    In the Knox County Schools, we have certainly embraced the TEAM 
teacher evaluation system, but we have also crafted a detailed five-
year strategic plan, invested in professional development and teacher 
support, embraced research-based instructional practices, focused on 
school leadership, initiated performance-based compensation, 
facilitated professional learning communities, and built the capacity 
to utilize data to support great instruction. These strategies all 
support and compliment the centerpiece teacher evaluation system, and 
these strategies are collectively indispensable to our educational 
success.
    Finally, you may be wondering how the new teacher evaluation system 
in Tennessee is impacting teaching and learning. So, I will leave you 
with just a few perspectives on outcomes:
    In 2011-12, Tennessee saw some of the highest gains in student 
achievement on state assessments in recent history. Likewise, this past 
year in the Knox County Schools we have seen strong academic progress 
by virtually every quantifiable measure of student learning and 
success. Proficiency for our students increased overall in grades 3-8 
in all four tested subject areas: English/language arts, mathematics, 
science and social studies. Graduation rates, academic growth, and ACT 
scores also posted strong results.
    In our school system, we have experienced substantial gains in 
teacher value-added scores in the last two years. Our district 
experienced a significant decrease in the number of teachers performing 
at the two lowest effectiveness levels from 2011 to 2012, declining 
from 18% to 9%.
    Over that same time period, the percentage of our teachers scoring 
in the highest category of teacher value-added performance, those 
making the greatest impact on student learning, increased from 27% to 
36%.

   TABLE 1: DISTRIBUTION OF KNOX COUNTY SCHOOLS TENNESSEE VALUE-ADDED ASSESSMENT SYSTEM (TVAAS) TEACHER EFFECT
                                                SCORES 2010-2012
                                     [Teachers with individual TVAAS scores]
----------------------------------------------------------------------------------------------------------------
                     Year                           1          2          3          4          5        Count
----------------------------------------------------------------------------------------------------------------
2012..........................................         4%         5%        32%        23%        36%      2,050
2011..........................................         9%         9%        38%        16%        27%      2,417
2010..........................................        13%        13%        34%        16%        24%      1,738
----------------------------------------------------------------------------------------------------------------

    In the Knox County Schools, our student outcomes are not nearly 
where we want them to be yet--and we are certainly not declaring 
victory--but I believe that our teacher evaluation system is an 
important strategy in improving the quality of public education in 
Knoxville and across our state. Tennessee's teacher evaluation system 
is not perfect, but it is a vast improvement over our previous 
evaluation process, and I think it will prove to be a very valuable 
professional growth and instructional improvement tool.
                                 ______
                                 
    Chairman Rokita. Thank you, Dr. McIntyre.
    Dr. Watson, you are recognized for 5 minutes.

   STATEMENT OF DR. RODNEY WATSON, CHIEF OF HUMAN RESOURCES, 
              HOUSTON INDEPENDENT SCHOOL DISTRICT

    Mr. Watson. Thank you for the opportunity to testify today. 
My name is Rodney Watson. I am the chief human resources 
officer for the Houston Independent School District.
    Under the leadership of Superintendent Terry Grier and our 
board of trustees, we have been working to improve teacher 
evaluation and professional development for the past 3 years. 
This work, or the impetus for this work, stemmed from a major 
disconnect between our old teacher and evaluation system and 
student achievement.
    In Houston our old system gave teachers acceptable 
performance ratings, so we had about 97 percent of our teachers 
who received acceptable ratings when, in fact, we have over 
70,000 students that could not read at grade level. As a 
result, two-thirds of Houston ISD teachers are now aware of at 
least one specific area in which they need to improve.
    I would like to spend my time sharing with you a few of the 
most important lessons we have learned over the past few years, 
which I think will help you as you make key and critical 
decisions as we tackle these issues.
    First, we have learned that better teacher evaluations are 
not the end goal; they are one part of a solution to one of the 
most critical challenges that most school districts face today. 
Nothing we can do for our students matters more.
    In Houston, our work on evaluations and professional 
development is just one part of our Effective Teacher 
Initiative, which we launched in 2009. Specifically, we have 
made human capital acquisition a focus as a district to recruit 
and select teachers earlier because research shows the earlier 
we are able to attract and retain good teachers, the more 
likely they are to have success in the classrooms.
    We are also offering potential trips to campuses that are 
also likely to yield high-performing teachers. Steps like these 
allow us to be able to compete with other districts and charter 
networks who have historically sought out and hired the best 
candidates earlier.
    In addition, as part of our Effective Teacher Initiative, 
we are thinking how we can use compensation and career pathways 
to retain and reward our best teachers. Using data from our 
evaluation system, we are able to identify our best teachers 
and use a multi-pronged approach to retain them in HISD. For 
years our district has been a leader in the field of 
performance pay by rewarding our top-performing staff with 
significant bonuses through our ASPIRE program.
    Second, we have learned that rigorous evaluations and 
better professional development go hand in hand. Some people 
suggest that these two things are mutually exclusive--that 
better evaluations undermine professional development, for 
example--but what we have found is that nothing could be 
farther from the truth.
    We expect a lot from our teachers, and for our new 
evaluation system, our processes reflect that providing them 
with specific expectations for their classroom practice, we are 
able to help them and support them as they reach their goals. 
But we also designed the evaluation system to give teachers 
more and better development opportunities than they ever had in 
our old system.
    In addition, all of our teachers have the opportunity to 
work with one of 130 teacher development specialists, which are 
master teachers in specific subject areas whose job it is--
which is their only job--is to offer advice and connect 
teachers with resources that can help them improve. This is a 
position that was created and staffed as part of our Effective 
Teaching Initiative.
    Setting a high bar for excellence is critical to good 
professional development because we can't help teachers reach 
their full potential unless we are honest about what they need 
and how they are going to improve, and it is our responsibility 
to provide them with the necessary resources and also with a 
picture of what excellence looks like.
    Third, we have learned that better evaluations can help us 
hold on to our best teachers. A lot of people worry that more 
rigorous evaluations will push good teachers out the door. That 
hasn't been our experience. In fact, we see teacher evaluation 
systems as a critical tool that helps us keep even more of our 
best teachers. After all, we can't retain our best teachers if 
we don't know who they are.
    As we began to look at retaining our ``highly effective'' 
teachers, our goal this year is to retain at least 95 percent 
of them after retaining 92 percent last year. We are also 
taking steps to attract more promising teachers to our schools 
by offering sign-on bonuses up to $5,000 in our hardest-to-
staff subject areas and our schools.
    During the first year of implementation we made it a 
priority to gather feedback from our teachers and appraisers on 
their experience with the new system at several checkpoints 
throughout the year. We found that teachers who reported that 
their system--that their appraiser consistently applied the 
expectations articulated in our rubric and who received useful 
feedback about their practice from their appraiser were 10 
times more likely to report that the evaluation system was fair 
and believed that their rating to be accurate--an accurate 
reflection of their performance.
    I conclude with you the obvious point: This is extremely 
hard work. Getting the logistics of a teacher evaluation system 
right is hard enough, but on top of that you are really asking 
schools across the nation to embrace an entirely new paradigm, 
a new culture of honest feedback and accountability for results 
in the classroom.
    No school system can hope to get this exactly right on the 
first try, but perfection shouldn't be the standard. Our 
experience in Houston shows that it is possible to make big 
strides in teacher evaluation and development right away, at 
the same time, keeping improvements going as you go along.
    Thank you very much.
    [The statement of Dr. Watson follows:]

   Prepared Statement of Dr. Rodney E. Watson, Chief Human Resources 
       Officer, Houston Independent School District, Houston, TX

    Thank you for the opportunity to testify today. My name is Rodney 
Watson, and I'm the Chief Human Resources Officer for the Houston 
Independent School District. Under the leadership of Superintendent 
Terry Grier and our Board of Trustees, we have been working to improve 
teacher evaluation and professional development in our district for the 
last three years.
    This is work we undertook because we saw a major disconnect between 
our old traditional teacher evaluation system and student achievement. 
This was a system not unlike those in effect in most districts across 
America. In Houston, this old system gave acceptable performance 
ratings to 97 percent of teachers, despite the fact that 70,000 Houston 
students were reading below grade level. To their credit, Houston 
teachers told us they wanted a useful evaluation system that treats 
them like the professionals they are.
    As a result, thousands of teachers joined with other educators, 
parents, and community members to help design a new teacher evaluation 
and development system that is now in its second full year of 
implementation. Today, two-thirds of Houston ISD teachers are aware of 
at least one specific area in which they need to improve. More 
importantly, they are getting the guidance and tools to make it happen. 
We think it's one of the most innovative approaches to teacher 
evaluation in the country, and I would be happy to address some of the 
specifics during the question and answer period.
    I would like to spend my time sharing a few of the most important 
lessons we have learned so far, which I think will help you and 
especially education leaders in your states and districts who are 
tackling these issues.
    First, we have learned that better teacher evaluations are not an 
end goal. They are one part of a solution to the most critical 
challenge our schools face today: how to find and keep teachers who can 
prepare our students for success in today's ultra-competitive economy. 
Nothing we can do for our student's matters more.
    In Houston, our work on evaluations and professional development is 
just one part of our Effective Teachers Initiative, which we launched 
in 2009. This initiative is a commitment to refocus nearly every aspect 
of our human resources operation on putting great teachers in every 
classroom. That commitment has led us to reexamine everything from the 
way we recruit teachers to the way we pay them to the way we encourage 
our best teachers to stay in HISD.
    Specifically, we have made human capital acquisition a focus as a 
district to recruit and select teachers earlier because research has 
shown that teachers who are hired earlier have high student achievement 
results in the classroom. We kick off our recruitment season as early 
as October to ensure our recruiting trips to campuses that are likely 
to yield high performing teachers. We also offer potential teaching 
candidates early contracts which support our ability to hire teachers 
in the winter and spring instead of late in the summer. Steps like 
these allow us to finally compete with many of our surrounding suburban 
districts and charter networks, who have historically sought out and 
hired the best candidates far earlier than we ever could in the past.
    In addition, as part of the Effective Teachers Initiative, we are 
rethinking how we can use compensation and career pathways to retain 
and reward our best teachers. Using data from our evaluation system, we 
are able to identify our best teachers and use a multi-pronged approach 
to retain them in HISD. For years, our district has been a leader in 
the field of performance pay by rewarding top performing staff with 
significant bonuses through the ASPIRE award program. And this past 
year, we engaged teachers and principals from around the district to 
develop teacher leader roles and a career pathway framework that is 
currently being piloted in 23 schools. These opportunities allow our 
best teachers to specialize and extend their reach to more students and 
colleagues, without having to leave the classroom.
    Second, we have learned that rigorous evaluations and better 
professional development go hand in hand. Some people suggest that 
these two things are mutually exclusive--that better evaluations 
undermine professional development, for example--but nothing could be 
further from the truth. We expect a lot from our teachers, and our new 
evaluation process reflects that by providing them with specific 
expectations for their classroom practice. But we also designed the 
evaluation system to give teachers more and better development 
opportunities than they ever had under the old system. We've raised the 
bar, but we are also helping our teachers meet those expectations. For 
example, as part of the evaluation process, our teachers meet regularly 
with their administrators to discuss their performance and create an 
Individualized Professional Development Plan. This plan not only 
connects teachers to development opportunities that fit their needs and 
interests but is also matched directly to the specific instructional 
practice criteria that make up the observation part of their 
evaluation--a far cry from the one-size-fits-all workshop approach to 
professional development that prevails in most districts.
    In addition, all teachers have the opportunity to work with one of 
130 Teacher Development Specialists, master teachers in specific 
subject areas whose only job it is to offer advice and connect teachers 
with resources that can help them improve. This is a position we 
created and staffed as part of Effective Teaching Initiative using 
existing funds. We have also created a library of exemplar videos that 
showcase some of our best teachers engaging in best practice around 
each of the 13 instructional practice criteria found in our teacher 
appraisal and development rubric. Our evaluation system has helped us 
create a roadmap for our teachers to know and meet the expectations we 
have for the quality of instruction they deliver to our students on a 
daily basis.
    None of this means we've lost sight of our high standards: Under 
our old evaluation process, about 97 percent of our teachers were told 
they were essentially perfect and had absolutely nothing to work on. 
Now, nearly two-thirds of teachers have a development area identified 
on their evaluation.
    Setting a high bar for excellence is critical to good professional 
development, because we can't help teachers reach their full potential 
unless we are honest about what they need to improve, and provide 
examples of what excellence looks like.
    Third, we have learned that better evaluations can help us hold on 
to our best teachers. A lot of people worry that more rigorous 
evaluations will push good teachers out the door. That hasn't been our 
experience. In fact, we see our teacher evaluation system as a crucial 
tool that helps us keep even more of our best teachers--after all, we 
can't work to retain great teachers unless we can identify them in the 
first place. Thanks to our evaluation system, we know who our best 
teachers are, and we're aiming to keep at least 95 percent of them this 
year after retaining 92 percent of teachers rated ``highly effective'' 
last year. We are also taking steps to attract more promising teachers 
to our schools by offering signing bonuses of up to $5000.00 in the 
hardest-to-staff subject areas and schools.
    Our research and experience suggests, more rigorous evaluations are 
actually directly related to higher levels of teacher satisfaction with 
the evaluation process. During the first year of implementation, we 
made it a priority to gather feedback from teachers and appraisers on 
their experience with the new system at several checkpoints throughout 
the year. We found that teachers who reported that their appraiser 
consistently applied the expectations articulated in the rubric and who 
received useful feedback about their practice from their appraiser were 
10 times more likely to report that the evaluation system was ``fair'' 
and believed their rating to be an accurate reflection of their 
performance. Likewise, teachers who saw and received feedback about 
their performance from their Teacher Development Specialist more 
frequently during the year were more satisfied with the evaluation 
process as a whole. What this tells us is that our teachers welcome and 
embrace high standards and high quality feedback, which ultimately 
supports their overall improvement.
    I'll conclude with an obvious but important point: This is hard 
work. Getting the logistics of a new teacher evaluation system right is 
hard enough, but on top of that you are really asking schools to 
embrace an entirely new culture of honest feedback and accountability 
for results in the classroom. No school system can hope to get this 
exactly right on the first try, but perfection shouldn't be the 
standard. Our experience in Houston shows that it's possible to make 
big strides in teacher evaluation and development right away--and keep 
making improvements as you go along.
    Thank you and I look forward to answering your questions.
                                 ______
                                 
    Chairman Rokita. Thank you, Doctor.
    Mr. Harper, you are recognized for 5 minutes?

STATEMENT OF EMANUEL HARPER, FRENCH TEACHER, HERRON HIGH SCHOOL

    Mr. Harper. Thank you.
    Chairman Rokita, Ranking Member McCarthy, and members of 
the committee, thank you for giving me the opportunity to speak 
on this important subject. As a French teacher at Herron High 
School in Indianapolis it is my priority to expose students to 
different cultures as we become a more globalized society. I am 
also an adjunct faculty member at Marian University for 
transition-to-teach candidates and also a Teach Plus Policy 
fellow.
    So at my core I am a teacher, and while there is no oath 
teachers take before entering into the classroom, for all of us 
there is an abiding promise that we do and must make, one that 
has to transcend the rancor of socioeconomic conditions and 
decades of preconceived conclusions. This promise we make as 
teachers is that every day we go into the classroom working 
towards ending the achievement gap that has and continues to 
jeopardize our students' futures.
    Unfortunately, we are here today because this promise has 
not been kept. Fortunately, there are at least two remedies: 
One, implementing stronger evaluative tools for teachers, 
appropriately weighing student performance and student voice; 
and giving more local flexibility in gathering a culture that 
drives student growth.
    I know this because as I began my first year teaching at my 
first school I recognized that enthusiasm was the benchmark by 
which teachers were deemed effective. No longer was the focus 
on how you taught but how the administration thought you 
taught. It created a stagnant environment where students sat in 
their desks numb.
    And in this system I knew that there were areas of growth 
for me that simply were not being addressed, even despite my 
hard work. Without having an objective account of my practice 
with substantive measurements and indicators, I was left to 
tease out my performance based on what I felt. It was 
unsustainable and I decided to leave the school.
    And so I spoke out against this ineffective practice by 
testifying before the Indiana House Education Committee in 
favor of the newly implemented Senate Act 1, which strengthens 
teacher evaluations. This new act bases effectiveness not on 
degrees and years in the classroom, but on composites like 
student outcomes and observations. And it is schools like 
Herron High School, where I currently teach, that are leading 
the way in this regard.
    Herron High School, which is a public charter school 
located in the heart of downtown Indianapolis, has a mission to 
create world-class citizens of the 21st century. In fact, US 
News & World Report ranked Herron in the top 30 best high 
schools in the United States.
    This is possible due to a rigorous evaluation tool used to 
measure our impact on students. With announced and unannounced 
visits we are continually assessed on our effectiveness. This 
maintains a constant loop of evaluation, critical feedback, and 
actionable next steps.
    In the evaluation process, non-tested subjects, such as 
French, undergo the same amount of scrutiny as tested subjects, 
with curriculum and assessments analyzed for their fidelity to 
A.P. exams. Thus, with end-of-year performance conversations, 
teachers who continually meet our high instructional bar are 
rewarded with leadership opportunities and salary increases. 
Those who do not are either placed on a targeted and demanding 
teacher assistance plan or removed from the classroom. 
Retaining and recruiting top talent translates to educating and 
preparing all students for college, which is our singular and 
overriding objective.
    But if the system at large inhibits the cultivation and 
retention of great teachers, a more rigorous evaluative tool 
will be for naught. Local flexibility in staffing will ensure 
that only the highest-qualified teachers are selected to enter 
into the classroom, and at Herron our professional development 
is built around using our teachers as experts to increase 
student performance. We generate targeted cross-curricular 
interventions for at-risk students and reinforce the vertical 
alignment of our disciplines to challenge all students.
    No one finishes their crosswords in this space. It is 
eagerly anticipated and an opportunity to hone our mission of 
closing the achievement gap.
    And this is why I know that I don't make the promise to 
close the achievement gap in vain. It is possible and is 
happening as we speak at Herron and hundreds of other schools 
across the United States. But action has to be taken now for 
our students to properly inherit what we all aspire to, which 
is the American dream, and it starts with me.
    It starts with me testifying here on the importance of 
stronger evaluative tools for teachers. It starts with us 
allowing local schools and school districts the flexibility to 
innovate and retain talent to drive student success. And it 
starts with reaffirming the right of every student to a high-
quality and rigorous education.
    And it must end with student achievement, because despite a 
student's surroundings or background, graduating from high 
school and college empowered to do anything they choose will be 
their destiny, but only when we do everything we can, starting 
today, to ensure effective teachers in every classroom.
    Thank you.
    [The statement of Mr. Harper follows:]

      Prepared Statement of Emanuel F. Harper IV, French Teacher,
                  Herron High School, Indianapolis, IN

    Chairman Rokita and Ranking Member McCarthy: Thank you for giving 
me the opportunity to speak on this important subject.
    As a French teacher at Herron High School, It's my priority to 
expose students to different cultures as we become a more globalized 
society. I am also an adjunct faculty member for Best Practices in 
World Language for Marian University's Master of Arts in Teaching 
program. It's here where I prepare the next generation of transition-
to-teach candidates on how to most effectively teach world languages. 
The community is also an important stakeholder as I am a founding 
member of the Indianapolis chapter of Stand For Children--a grassroots 
parent and student advocacy non-profit. And, as a policy fellow for 
Teach Plus, it is important that I help shape the policies that will 
affect my students.
    Of all the great professions, there is no oath teachers take before 
entering the classroom. But deep within us is an abiding promise we do 
and must make. It is one that must transcend the rancor of socio-
economic conditions and decades of preconceived conclusions, one we are 
entrusted to perform and must faithfully execute. It is one that if 
broken stunts our nation's prosperity and (more critically) a student's 
access to the American Dream. This promise we as teachers must make is 
that every day we go into the classroom working towards ending the 
achievement gap that has and continues to jeopardize our students' 
futures.
    Unfortunately we are here because this promise has not been kept. 
Fortunately there are at least two remedies--1) implementing stronger 
evaluative tools for teachers, appropriately weighing student 
performance and student voice and 2) giving more local flexibility in 
generating a culture that drives student growth.
    I have a deep abiding love and respect for the teaching profession 
and my content. But as I began my first year teaching at my first 
school, I recognized that enthusiasm was the benchmark by which 
teachers were deemed effective. No longer was the focus on how you 
taught but how the administration thought you taught. It created a 
stagnant environment where students sat in their desks numb. Matt, a 
former student, exemplified this tendency until he realized that I 
wasn't going to let him give up. With a lot of effort on both of our 
parts, he became one of the best students in my class, pleading with me 
to Skype with him over Spring Break to work on more French. I assure 
you I obliged.
    Yet, I knew there were areas of growth that were simply not being 
addressed. Without having an objective account of my practice with 
substantive measurements and indicators, I was left to tease out my 
performance based on what I ``felt''. It was unsustainable. I had to 
leave the school.
    I spoke out against this ineffective practice by testifying before 
the Indiana House Education Committee in favor of a newly implemented 
Senate Act 1 which strengthens teacher evaluations. This new act 
establishes higher standards for teacher performance, basing 
effectiveness not on degrees and years in a classroom, but on 
composites like student outcomes and observations. And it is schools 
like Herron High School, unlike the school I was formally at, where I 
currently work that are leading the way in this regard.
    A public charter school located in the heart of downtown 
Indianapolis, Herron's mission is to create world class citizens of the 
21st century. US News and World Report ranked Herron in the Top 30 Best 
High Schools in the United States. This was possible due to a rigorous 
evaluation tool that our Dean of Faculty Greg Lineweaver uses to 
measure our impact on students. With unannounced visits, we are 
continually assessed on our effectiveness. This maintains a constant 
loop of evaluation, critical feedback, and actionable next steps. In 
the evaluative process, non-tested subjects (such as French) undergo 
the same amount of scrutiny as tested subjects with curriculum and 
assessments analyzed for their fidelity to AP exams. Thus, with end-of-
the-year performance conversations, teachers who continually meet our 
high instructional bar are rewarded with leadership opportunities and 
salary increases. Teachers who do not are removed from the classroom. 
Recruiting and retaining top talent translates to educating and 
preparing all students for college--our singular and overriding 
objective.
    But if the system at large inhibits the cultivation and retention 
of great teachers, a more rigorous evaluative tool will be for not. 
Local flexibility in staffing will ensure that only the highest 
qualified teachers are selected to enter into the classroom. And at 
Herron, our Professional Development is built around using our teachers 
as experts to increase student performance. In-housed, every Friday we 
dive into data about our students. We generate targeted cross-
curricular interventions for at-risk students and re-enforce the 
vertical alignment of our disciplines to challenge all students. No one 
finishes their crosswords in this space. It's eagerly anticipated, an 
opportunity to hone our mission of closing the achievement gap.
    And this is why I know that I do not make the promise to close the 
achievement gap in vain. It is possible and is happening as we speak at 
Herron and hundreds of schools across the country. But action has to be 
taken now for our students to properly inherit what we all aspire to--
the American Dream. And it starts with me. It starts with me testifying 
here and now on the importance of stronger evaluative tools for 
teachers. It starts with us allowing local schools and school districts 
the flexibility to innovate and retain talent to drive student success. 
It starts with affirming the right of every student to a high quality 
and rigorous education. And it must end with students like Matt. He is 
why closing the gap is important. Because despite his surroundings and 
background, graduating from high school and college empowered to do 
anything he chooses will be his destiny, but only when we do everything 
we can to ensure effective teachers in the classroom.
    Thank you.
                                 ______
                                 
    Chairman Rokita. Thank you, Mr. Harper.
    I am going to reserve my question time for a little bit 
later and recognize, instead, Mr. Thompson for 5 minutes?
    Mr. Thompson. Thank you, Chairman, and thank you for 
putting together this subcommittee hearing. My experience is as 
a--you know, an accurate, appropriate, thoughtful employee 
evaluation really is a baseline of, you know, of--for 
proficiency improvement towards high performance, and whether 
we are talking about teachers or whatever field, it is 
extremely important tool and sometimes we don't do that so 
well.
    And so I really appreciate expertise. I want to thank the 
experience that all the panelists bring in coming here today.
    And I want to start with Mr. Harper. Mr. Harper, how is--in 
your opinion, how is professional development at your school 
related to the information gleaned from the evaluation? Can you 
give an example of how it specifically targeted to meet your 
professional needs and professional development?
    Mr. Harper. Thank you for the question. At Herron High 
School we collect data from assessments and from evaluations 
that we take from our students, and Friday, when we have our 
meetings an hour and a half before school, we look over that 
data to make sure that the students who are coming up short are 
assisted by their teachers.
    So we make sure that we target students who need office 
hours, so those are reserved periods for teachers to help 
students individually, and we also have structured academic 
supports for one-on-one meetings with students before and after 
school. So it is really a time for us to analyze what we need 
to do as a school to make sure that we are encouraging growth 
for all of our students.
    Mr. Thompson. I know in my time I served--I am a recovering 
school board member, and, you know, frequently we would get 
those requests during those monthly, or bimonthly, or--they 
told me it was only going to be 1 hour a month, which was a bit 
of a lie, when I went on the board--you know, we would get 
those requests for continuing education, but they were--
sometimes I didn't find they were really related, in any data 
sense, to kind of gaps or proficiency issues that our teachers 
had. I am hoping that whatever models are developed on school 
districts or states, you know, tie in so that we are always 
looking to increase the performance level, you know, to--you 
know, because no matter what you do there is always an 
opportunity to improve and to be better.
    Dr. McIntyre, have your local teachers brought in and 
responded to the district's teacher evaluation system, and do 
they feel that it helps improve their practice in the 
classroom?
    Mr. McIntyre. Thank you, Mr. Thompson.
    You know, if you had asked me that question about 18 months 
ago I would probably give you a very different answer. I think 
at the beginning there was a lot of uncertainty and maybe even 
some anxiety about this new evaluation system, and what it 
looked like, and how it was going to be implemented.
    But I will tell you, over time, having worked through it 
and lived with it last year and half way through this year, I 
think the vast majority of our teachers have begun to see the 
value of this evaluation system. Having lived through it, they 
see that it is fair. Having lived through it, they see that it 
actually--we really do mean that it is developmental and meant 
to help enhance their practice, and that they have learned a 
few things from it.
    I think that the experience of--and I say this half in 
jest--you know, we didn't fire half our teachers this summer 
probably, you know, helps. They realize that we really do mean 
for this to be a developmental process. And I think that we saw 
some very strong outcomes for student learning last year, and I 
think we have--we are very fortunate at Knox County Schools to 
have extraordinary teachers, and if something is going to--if 
they see that something is going help them enhance student 
learning they are going to be game for it.
    So I think I see, you know, the vast majority of our 
teachers, I think, have come to realize that there is value in 
this evaluation system.
    Mr. Thompson. Any time we implement change, I mean, that is 
hard, because it is just in the nature of it. Were there 
barriers or problems that you ran into in implementation of 
this, and how did you address those?
    Mr. McIntyre. I think there always are, and I think that 
what we tried to do was try to be as thoughtful as we could 
about the implementation. And I think that is one of the most 
important things, as we think about teacher evaluation 
nationally, and think about how we implement it well in schools 
systems, is to do it thoughtfully.
    I think you have to have buy-in from leadership and make 
sure that this is something that is important to, you know, 
district leadership, but also our school principals. They are 
key to making sure that this is a process that is going to be 
valuable and helpful.
    I think communication is incredibly important and making 
sure that there is information available to teachers, that 
there is training available to teachers, as Mr. Harper said, 
that there is professional development that actually is really 
rationally related to the evaluation that is going to occur.
    We have done a couple of things that I think have been very 
helpful. We had a, what we called a----
    Chairman Rokita. Gentleman's time is expired.
    Mr. McIntyre. Oh, I am sorry.
    Chairman Rokita. It is all right.
    Mr. Thompson. Thank you, Mr. Chairman.
    Thank you, Dr. McIntyre.
    Chairman Rokita. See, it is not that easy.
    Mr. McIntyre. No.
    Chairman Rokita. Mrs. McCarthy is recognized for 5 minutes?
    Mrs. McCarthy. Thank you.
    Dr. Watson, I want to thank you for your testimony and I 
appreciate your emphasis on teacher retention as well as the 
inclusion process your school district embarked on when 
reexamining teacher evaluation. You mentioned in your testimony 
that two-thirds of the teachers were aware of at least one area 
in which they needed to improve.
    Can you go into that a little bit deeper on how you 
basically were able to improve on those certain skills once the 
evaluation had been made?
    And also, with evaluations--a number of you had said, you 
know, at the end of the year you look at everything. I think 
that is one of the biggest problems, trying to get the 
information to the teachers sooner than at the end of the year. 
I don't know how we do that. The hearing we had last week, that 
was using high technology to do a weekly evaluation, which is 
obviously better for the student. But if you could answer my 
first question.
    Mr. Watson. Sure. We have taken great strides in being able 
to provide our teachers with the necessary information they 
need to be successful. Paramount to that is our development of 
individualized professional development plans.
    So at the very beginning of the year our teachers go 
through a goal-setting process----
    [Audio gap.]
    Mrs. McCarthy. Nope.
    Chairman Rokita. Is the green light on?
    Can you share?
    Mr. Watson. Thank you--at which time they sit down with 
their administrator and they go through and develop specific 
goals. Now, those goals can be related to the actual 
performance areas that they have shown they need development in 
as well as other areas that they want to be successful with.
    Also, with our school principals and our school support 
officers we sit down once a year at the very beginning of the 
year as well as at the middle of the year and we do what we 
call a ``fall check-in'' or ``staff review.'' During this time, 
we go through every single teacher's data within that 
particular building and we are able to talk about those 
development areas that teachers need.
    Now, in my testimony I specifically talk about, it is not 
only our ability to be able to identify those areas of need but 
also our ability to be able to provide specific support. So we 
have developed a litany of exemplar videos based upon all 13 
exemplar areas on our--in our effectual ratings, where teachers 
are able to go through and watch videos of best practices as it 
relates to instruction.
    Mrs. McCarthy. You know, when you talked about your program 
ASPIRE----
    Mr. Watson. Yes.
    Mrs. McCarthy [continuing]. Where do you find the funding 
for that? Because that seems to be the biggest problem on--when 
we are talking about any school developing programs for the 
teachers. Money is always an issue.
    And recruiting early, too. Tell me how that plays into such 
an important part.
    Mr. Watson. Recruiting early is extremely important. As I 
said earlier, when we go out and select teachers the earliest 
we can we are able to find the best teachers. As we know, the 
best teachers are out looking for jobs right now, versus 
teachers that sometimes wait a week or 2 or a month before 
school starts. And so by looking at how we recreate--how we go 
out and recruit teachers as well as what we do to recruit 
teachers, we have been able to change our processes to free up 
budgets--campus budgets--where principals are early to go 
through and look at who exactly--what positions they need to 
fill as well as those positions that they may not be filling on 
their campuses.
    Mrs. McCarthy. Thank you.
    Just one quick question, and I know this is, you know, for 
early education that we are working on, but the--you all 
mentioned about getting the best teachers from the schools. How 
prepared are the teachers when they graduate? Have they had 
enough training?
    Mr. Watson. Well, I don't think you could ever have enough 
training. I don't think any college or private education can 
ever provide enough, but one of the things that we have done is 
we have begun to be proactive and go out and network with area 
colleges and universities in our area, and we have let them 
know specifically what we need teachers to be able to do. And 
so we have infused that and actually have had them go back and 
redevelop their programs to meet the needs that we have within 
our district.
    Mrs. McCarthy. Dr. Harper--very quickly, because my time is 
running out--when you went to your first school, how soon was 
it that you were into it that you saw that the school was not 
functioning well? Was it the atmosphere of the teachers or was 
it more on the principal and the superintendent's part?
    Mr. Harper. Thank you for the question. For me, I thrive on 
feedback, and so the MET study and actually the Teach Plus 
Policy study, ``Great Expectations,'' found that teachers like 
myself need feedback--effective feedback for--and actionable 
next steps to be able to perform well.
    So when I was at my first school I didn't have anyone come 
into my room until the second semester, and they came in with a 
checklist and then went out and that was all of 5 minutes, and 
I realized that that would be great if I was simply going into 
teaching as a secondary job, but teaching is what I love and I 
want to make an impact on the next generation, and so I knew I 
needed to be in a place that would provide me with structural 
support so that I can get better, and having a continued 
dialogue and being able to be effective for my teachers--or for 
my students was something of priority to me, so that is when I 
knew.
    Mrs. McCarthy. Thank you.
    Chairman Rokita. Thank you, Mrs. McCarthy.
    Mrs. Foxx is recognized for 5 minutes?
    Mrs. Foxx. Thank you, Mr. Chairman.
    And I want to thank our witnesses here today.
    Dr. Cantrell, in your opinion and using your knowledge of 
the MET study findings, can we trust the results of teacher 
evaluation systems if implemented using multiple measures with 
balanced weight? Is it fair to use the results of teacher 
evaluation systems to make decisions about personnel, both 
positive and negative, to improve the teaching profession?
    Mr. Cantrell. Absolutely. Where the measures agree, we can 
have the confidence to act. One of the benefits of having 
multiple measures is the error is actually uncorrelated. So you 
know that any single measure isn't going to be perfect, but 
when you have several measures the mistakes that they make 
correct one another, and so the average from multiple measures 
is much more reliable than any single measure could provide 
alone.
    Mrs. Foxx. Thank you.
    Dr. McIntyre, how does the Knox County teacher evaluation 
system interact with the state evaluation system of Tennessee, 
and were you given flexibility to implement specifics in a way 
best suited to your local needs?
    Mr. McIntyre. Yes, ma'am. Thank you.
    The Knox County Schools' evaluation system is actually the 
standard or default system for the state of Tennessee, the TEAM 
model. Tennessee actually allows for different districts to 
define an alternative model as long as it meets the basic 
criteria of evaluating every teacher every year and at least 50 
percent being based on student outcomes. So there are a few 
different models, actually, in the state of Tennessee, but the 
vast majority of districts use the TEAM model.
    We have been given some flexibility in terms of how we 
implement, in terms of some of the measures that we look at. We 
have been given flexibility, for example, as to there is an 
opportunity to do fewer observations of teachers who are on the 
higher end of the scale. But that is an option; you can do that 
or you can not do that.
    And because we believe that the evaluation process is 
developmental, we have chosen to continue with the number--the 
same number of observations even for teachers on the higher end 
of the scale because we think it is beneficial. Even great 
teachers can become even better.
    Mrs. Foxx. Thank you very much.
    Mr. Harper, I am so glad that we have a teacher here today 
and I want to say to you, when I taught--I taught for 15 years 
at Appalachian State University--we were only required to do an 
evaluation every 2 years or 3 years but I did one every 
semester, so I identify with you. I liked to get the feedback 
from the students--the student evaluation, and so I am glad to 
hear you saying you like to get that feedback.
    Talk a little bit, if you would, on your thoughts on 
teacher tenure and policies such as the ``last in, first out.'' 
How have you observed those, and what do you think about those 
as the way to operate in the school systems?
    Mr. Harper. Thank you. I think teacher tenure is great only 
if the teachers that are retained are really effective 
teachers. And unfortunately, ``last in, first out'' has 
negatively impacted a lot of school districts because you see 
really motivated candidates who go into the classroom let go 
because of tenure. I think it is important that we don't 
necessarily look at how long a teacher has been in the 
classroom, but more so, look at what impact they are making and 
allow that to be a really strong and driving force for how we 
evaluate whether or not they stay in the classroom, because all 
of us are here because we want to make sure that students make 
the appropriate gains, particularly if they come into the 
classroom lagging in certain categories, and so that is why it 
is really important that we look not necessarily at how long 
they have been in the classroom but how effective they are 
inside the classroom.
    Mrs. Foxx. Thank you, Mr. Chairman. I yield back.
    Chairman Rokita. Thank you.
    And Mrs. Davis is recognized for 5 minutes?
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    And thank you all for being here. I really appreciate it.
    As a former school board member in San Diego Unified, this 
evaluation issue was something that I always felt was terribly 
important and I was quite frustrated that we weren't able to 
move forward. And, of course, a number of years have taken 
place.
    I wanted to just mention, along with Mr. Polis, we have 
authored the STELLAR Act, which I hope you will all take a look 
at, Securing Teacher Effectiveness, Leaders, Learning, And 
Results Act. What I wanted to focus on quickly is--are just a 
few issues.
    One is the federal role. In your experience--and what this 
bill focuses on, Title 1 schools, particularly, and putting in 
place over a period of time with teacher buy-in and hopefully 
professional development, it is a flexible idea, in terms of 
making certain that there is buy-in and that there is very, 
very active participation in terms of the creation and design, 
but I am wondering what you think about that. I mean, do you 
think that there should be a federal role in this, and should 
we put some guidelines out there and then hold people 
accountable if they are not able to follow through?
    Anybody want to tackle that?
    Mr. McIntyre. Gosh, I think that if there is a federal role 
to be had it is probably setting broad parameters and giving a 
lot of flexibility to states and localities. You know, I think 
that certainly we believe, in Tennessee, that, you know, having 
the flexibility to implement something like a teacher 
evaluation system that makes sense for our state and for our 
local school district makes a lot of sense, and that there are, 
you know, differences in terms of how--what that might look 
like. Even in Knoxville versus Memphis versus----
    Mrs. Davis. Sure, absolutely.
    Mr. McIntyre [continuing]. Versus Nashville. And so I think 
you know, perhaps either the federal level or the state level 
setting broad parameters, making sure that there is, you know, 
adequate and appropriate evaluation of teachers, but maybe 
leaving lots of flexibility for local school districts to do 
what they need to do to make it work.
    Mrs. Davis. Thank you. That certainly is our intent. But I 
also see that sometimes school districts and states, as well, 
get a little tripped up along this process, and that is--you 
know, that is very important to be sure that you have all these 
elements in place.
    What is it, do you think, about trying to define and 
develop an evaluation system that does trip up those 
organizations--school entities--that are trying to move 
forward?
    Mr. Watson. I would say one of the areas that trips up is 
just the mere understanding of the various methods or measures 
we can use to accurately evaluate teacher performance. So long 
teachers have not had to use student performance as a measure 
of their effectiveness, and so better understanding around 
that, the use of EVAS as one of the measures, but also the 
ongoing educational training that is needed to be able to 
support teachers--more importantly, helping them also be able 
to understand and link up the professional development to those 
areas that have been deemed to be ``highly effective'' or 
``areas of improvement.''
    Mrs. Davis. And in terms of professional development, then, 
I think one of the difficulties is defining, what is the best 
kind of professional development, and then, do you have the 
resources to back that up? How have you seen in your work that 
school districts are able to carve out the resources that they 
need to actually provide the kind of teacher professionalism 
program that they know is best?
    Mr. McIntyre. You know, in Knoxville we just--we find that 
there is extraordinary capacity and expertise already in our 
classrooms and we seek to leverage that. A lot of our 
professional development is teacher-led. You know, we provide 
opportunities for teachers to step up and be in leadership 
roles, either in instructional coaching roles or providing 
professional development, and I think that has an enormous--it 
is incredibly high-quality professional development when our 
teachers do it because they take it extremely seriously, and it 
is incredibly powerful when it is teacher-to-teacher, as well, 
so that is one of the strategies that we use.
    Mrs. Davis. I wonder----
    Mr. Cantrell. You know, one more thing about evaluation as 
professional development, I think too often we think about 
evaluation as something that is just about measurement rather 
than is about feedback and the ability to mark progress and 
improvement over time and to make adjustments and to see if you 
are actually changing the outcomes that you have for students 
is incredibly valuable. And so we think about professional 
development as something that happens to teachers rather than 
as a process of improvement that requires evaluation and good 
information.
    Mrs. Davis. Thank you.
    Chairman Rokita. Thank you, Mrs. Davis.
    Gentlelady's time is expired.
    We will now hear from Dr. Roe for 5 minutes?
    Mr. Roe. Thank the chairman, and I am sorry I had to step 
out but the Tennessee Department of Transportation director was 
out there and any time you are talking about roads you go talk 
to that guy.
    Dr. Cantrell, I want to thank you and the Bill & Melinda 
Gates Foundation for your support of the Niswonger Foundation 
of Distance Learning in East Tennessee. It has been a 
phenomenal success, and just a personal thank you.
    On the evaluations--and this is Mr. Harper, or Dr. 
McIntyre, or any of you that have been in the classroom--let me 
give you a narrative here that I see and hear from former 
patients of mine who are teachers, many of them I know well. I 
went to read to a class--a second grade class--and as I got up 
to leave I said, ``Well, how is this young fellow doing?''
    And my friend who is the teacher said, ``Well, he is going 
to be with me again next year.''
    And I said, ``Why is that?''
    She said, ``Well, he missed 60 days of school.''
    First thing a doctor asks, ``Has he been sick?''
    And she said, ``No. His dad is in prison and his mother 
won't get up and get him out of bed to get him out the door to 
get him to school.'' So he is going to be held back, and that 
evaluation, that student didn't make adequate yearly progress, 
so he didn't learn what he is supposed to learn.
    And yet my teacher friend is being evaluated on someone--so 
how do you do that, because I hear that from teachers. There 
are things totally out of their control that are societal 
issues that they are being evaluated on.
    I absolutely think--we are in medicine right now we are 
doing outcomes-based, meaningful use criteria. Education is 
doing the same thing, try to standardize what we are doing and 
try to see--put a metric out here and see if we have actually 
made progress.
    Let me just throw that out to anybody. Dr. McIntyre? 
Anybody--Mr. Harper?
    Mr. Harper. That happens in schools across the country and 
I am glad you brought that up. For me personally, even if you 
have students who are coming from these different backgrounds, 
ultimately the buck stops with me and if I am not making the 
appropriate gains for these students I am ultimately held 
culpable. However, it is important to recognize that you look 
at the student's growth and progress and make sure that that is 
taken into consideration on how the teacher is evaluated.
    So yes, will students come from disadvantaged backgrounds 
and all these extraneous situations that you can't control? 
Yes. But effective teachers will seek out resources inside and 
outside their school to make sure that there is a plan for 
these specific students who might need extra support.
    Mr. Roe. Well, your job is a lot easier if you have got a 
mom and dad helping you out. I can tell you that.
    Mr. Harper. I definitely agree, sure.
    Mr. Roe. It is just, what you just described was making 
your job of teaching French or--I think you are a French 
teacher or----
    Mr. Harper. Correct.
    Mr. Roe [continuing]. Whatever, much harder.
    Dr. McIntyre, how--when you do those evaluations, how do 
you----
    Mr. McIntyre. Yes, sir. You know, I think that that 
certainly is an important consideration, and I think that is 
also why it is important that you look at multiple measures. I 
think it is important that you, you know, for the Tennessee 
system you look at classroom observation and you go in and look 
at instructional practice and you do that frequently. You do 
that at least a couple times if not--you know, for newer 
teachers, you know, up to four times in a year you have 
conversations with the teachers about that.
    So I think having multiple measures certainly is important 
in that. And then I think, as Mr. Harper said, if you are 
measuring student growth over time, as well, and the Tennessee 
Value-Added Assessment System is, you know, is said to take 
into account, statistically, some of those challenges of where 
a student starts and where they end the year, and make sure 
that the--that a teacher isn't penalized based on, you know, if 
a student starts the year below proficient. If they start the 
year academically behind but that teacher grows them over time 
that they, you know, essentially get credit for that, that that 
is taken into account in the measurement.
    And certainly the issue that you raised around supports for 
students and families is incredibly important, and that 
shouldn't necessarily be our job, but if it impacts student 
learning it sort of becomes part of our job, and having to work 
with our students and our families to broker services or 
provide support is an important part of what we do in schools 
today.
    Mr. Roe. Do you think, Dr. McIntyre, that you--we have 
enough data in Tennessee to recommend--I know we are--our Race 
to the Top is called First to the Top, but do we have enough 
data, now, to recommend these--this teacher evaluation system 
or some variant of it to the rest of the country or should we 
have--wait a little more time on that?
    Any of you can take that on.
    Mr. McIntyre. I believe the basics of the model in 
Tennessee are the right ones. I don't think the system is 
perfect. I think there are certainly some areas that need to be 
improved upon; there are some areas that need to be tightened 
up; there are some challenges that still need to be worked 
through in the system that we have in place right now, and I 
think, you know, one area is teachers who don't have individual 
growth data and how to make sure that we address that.
    But I do think the basic parameters of what we have put in 
place in Tennessee is quite good, and I think it is something 
that, as we look to replicate the model elsewhere, I think it 
would be very valuable in terms of having support for teachers, 
providing an experience where they get feedback on a regular 
basis, where they are reflecting on their practice. And it is--
I see it improving instructional practice in the Knox County 
Schools.
    Chairman Rokita. Gentleman's time----
    Mr. Roe. Thank the chairman. I yield back.
    Chairman Rokita. The gentleman's time is expired.
    We will now hear from Mr. Sablan for 5 minutes?
    Mr. Sablan. Thank you very much. Thank you, Mr. Chairman, 
for holding this hearing, and good morning, everyone.
    I come from a place way out in the Pacific where, unlike 
many school districts where you can reach into the next county 
and pull teachers in, we don't have that capacity. But I would 
also like to say that we have some bright spots in our school 
system, and it is through a rough diamond, but there are bright 
spots and potential.
    And I also notice that because of the federal mandates our 
schools were actually forced, in some instances, to take 
teachers and move them into a lower level in terms of pay and 
things like that. Federal mandates have required that, and 
actually some of my--two of my best teachers won't qualify as 
teachers. They happen to be my parents, and I also--but for now 
I would like to--Mr. Chairman, I would like to yield my time to 
Mr. Polis--the remainder of my time.
    Mr. Polis. I thank the gentleman. I deeply appreciate the 
time.
    As mentioned by my colleague, Susan Davis, we are working 
on the STELLAR Act, and we know that teacher quality is the 
single most important in-school factor that affects student 
achievement. The STELLAR Act would require school districts to 
work with school staff to implement fair teacher and principal 
evaluation programs. It is the flexibility to do what works, 
and this is an intensely local discussion, of course, between 
teachers and principals and school boards, and we want to make 
sure that there is the flexibility to work as systems like the 
one that Dr. McIntyre has outlined.
    At the same time, I think it is reasonable to say that 
there is nothing so special about any district that somehow 
they could argue that, ``Oh, in this area of the country 
teachers don't need to be evaluated. Teachers don't--their 
performance doesn't need to be tracked.'' So I think that that 
is a reasonable balance between a federal role and a local 
role, simply saying this needs to be done.
    We also feel, again, leave it entirely open, but the 
STELLAR Act, that performance data, achievement data needs to 
be a part of the discussion. Now, that certainly doesn't mean 
nor should it as a best practice be 100 percent of anything, 
but I think in every instance where we have seen a real 
meaningful performance agreement and evaluation system that 
teachers agree to and districts have agreed to there have been 
multiple indicators, and certainly academic growth on student 
assessments has been one of the multiple measures, as Dr. Roe 
mentioned.
    It is never statistically perfect, and surely there are, 
you know, situations that are beyond any teacher's control, and 
it affects a student here, a student there, that is why in 
the--these numbers need to be looked at in the--in an aggregate 
way, a way that is fair to teachers.
    Colorado has recently implemented a teacher evaluation 
system. We have similar discussions at the state level about 
whether this should be a one-size-fits-all for the state or 
districts. Basically we have created a--or are creating, I 
guess--a default out-of-the-box state approach and then 
districts can, if they choose, do their own. Frankly, for many 
smaller districts that have a few hundred or a few thousand 
people it is much easier to take something that is fully 
formed, if it is agreeable locally. Most of the major districts 
will want to go through their own work.
    My question for Dr. McIntyre is, what do you think we can 
do more of at the federal level to help ensure that more 
districts move in the direction that you have and to facilitate 
that however we can?
    Mr. McIntyre. Thank you. You know, as I said, I think that 
if there is a role at the federal level it probably is to just, 
you know, to encourage and support the evaluation of teachers 
across the United States. I think that we have found having an 
evaluation system that is--that evaluates every teacher every 
year, that incorporates student achievement data, and is based 
on multiple measures is an incredibly important and powerful 
structure.
    And you know, so again, I think that whether that comes 
from the federal level or whether that comes from each of the 
50 states, you know, I guess I am a little bit agnostic about, 
but I do believe the value of ensuring that we have those 
important evaluation structures and evaluation conversations, 
because I think that is one of the most important parts, and I 
think Mr. Harper said as well, getting that feedback and 
reflecting on practice is incredibly important and powerful, 
and that is what really moves the dial on instructional 
practice and, therefore, moves the dial on student achievement.
    Mr. Polis. I thank the gentleman for his time.
    I yield back.
    Chairman Rokita. Thank you.
    Gentleman's time is expired. The chair recognizes himself 
for 5 minutes.
    Again, I would like to thank each of you for coming today.
    Dr. Cantrell, let me start with you. If I heard your 
testimony correctly--I will try to paraphrase it now--you said 
that student characteristics are a lesser matter compared to 
the effectiveness of teachers in realizing high student 
achievement. Is that fair?
    Mr. Cantrell. Yes. Absolutely----
    Chairman Rokita. Can you go further in that?
    Mr. Cantrell. Happy to do that. Yes, irrespective of the 
students who came into a teacher's classroom, we could see 
high-and low-quality practice. So it points back to Mr. Roe's 
earlier question about is this fair, and we saw that there were 
great teachers in places where kids were really struggling and 
there were poor teachers in places where kids were really 
advantaged. And it really didn't matter where a student was 
starting----
    Chairman Rokita. Right. Okay. Thank you.
    Does anyone else want to react to that? Agree? Disagree?
    Okay. For the record, I am hearing three agreements from 
the other witnesses. [Laughter.]
    Dr. Cantrell, you also indicated that student surveys, 
along with classroom observations, et cetera, do a far better 
job of predicting which teachers will succeed in raising 
student performance. So it wasn't so long ago that I haven't 
forgotten my high school days and what I did and didn't do 
during those days. I was never empowered to evaluate a teacher, 
I would say now for good reason.
    But in all seriousness, I have heard some anecdotal 
stories--maybe just one or two--where teachers were said to be 
forging the surveys because they were fearful of certain or 
maybe most students in their classrooms, depending on the 
school or area, and that empowerment and that they were--you 
know, if their salaries or whatever else were dependent on 
this, the students knew that and, in a teacher's view, would 
have sabotaged that. Is that black helicopter stuff, or is that 
a concern, not--any of you could respond.
    Mr. Cantrell. So in the MET project teachers weren't held 
accountable for these surveys, so it was just a study----
    Chairman Rokita. So it was just part of your feedback loop 
that you were talking about----
    Mr. Cantrell. What we found when talking to students is 
they appreciated the opportunity and took it very seriously--
the opportunity to give voice. And we weren't asking students 
about--to make judgments that they weren't highly qualified to 
make. We were asking them about the quality of their 
instructional environment, and that is something where they are 
the experts.
    Chairman Rokita. And you haven't heard any stories about 
the likes that I have been talking about?
    Mr. Cantrell. No black helicopters.
    Chairman Rokita. Okay.
    Doctor?
    Mr. McIntyre. I think there are structures you can put in 
place to make sure that those surveys are done actually by the 
students, and we are actually piloting some student surveys 
this year. They won't count toward the evaluation, but we think 
it is--it will be interesting information, and based on the MET 
study, it is said to be highly reliable. So we are going to 
take a look at that this year.
    Chairman Rokita. Dr. Watson? I think that one is working 
for you if you want. It is up to you. Now you are in stereo 
probably.
    Mr. Watson. Yes.
    We are actually going to implement student surveys this 
spring for the first time.
    Chairman Rokita. Okay. No worries?
    Mr. Watson. No worries yet.
    Chairman Rokita. Okay.
    Mr. Harper?
    Mr. Harper. They are a powerful tool, and I use them in my 
classroom, and they are important for me to reflect on my own 
practice and see how I need to grow with my students.
    Chairman Rokita. Thanks for clearing that up.
    We will stick with you, Mr. Harper, for my last question. I 
was intrigued when you said that teachers don't take an oath. I 
have never heard of a teacher taking an oath; maybe there are 
some out there.
    Philosophical question to end out my minute or so of time 
left: Should there be an oath, and if so, who gets to write it?
    Mr. Harper. I think there should be a higher standard to 
which teachers are held accountable, because I think too often 
teachers don't have the supports in the classroom or teachers 
don't have the feedback that they need to make sure that they 
make appropriate gains. So, you know, I think there should be 
an oath but the oath that should be made should be to continue 
to increase student achievement in the classroom.
    Who writes that? You know, that is a great question. I will 
have to get back to you.
    Chairman Rokita. We will expect it in 7 days.
    Anyone else, really quickly? We have about 30 seconds left 
between the three of you on that last question.
    Mr. McIntyre. I think most teachers are deeply committed to 
children and deeply committed to the work that they do. I think 
in a lot of senses they take an oath to themselves and perhaps 
to a higher power when they go in the classroom. Making that a 
formal, you know, opportunity might be an interesting and 
useful thing to do.
    Chairman Rokita. Thank you, Doctor.
    Dr. Cantrell, anything to add?
    Mr. Cantrell. Amen.
    Chairman Rokita. Dr. Watson?
    Mr. Watson. They should have an oath, and I think they take 
that oath every day when they go. We just need to make sure 
that the oath that they take and the professional development 
and support match up so they can actually do it.
    Chairman Rokita. Thank you. My time is expired.
    I now recognize Mr. Scott for 5 minutes?
    Mr. Scott. Thank you, Mr. Chairman, and thank you for this 
hearing. It is interesting that all of the witnesses have 
confirmed that the teacher's resume is a totally inadequate 
measure of their effectiveness, that you have to do more than 
just look at the resume to ascertain whether or not the teacher 
is a good teacher.
    One of the things that concerns me is we keep trying to 
improve teacher quality without talking about pay scales.
    Dr. McIntyre, if you had more money and could offer higher 
salaries could you get better teachers?
    Mr. McIntyre. Thank you for the question. You know, I think 
resources, in terms of compensation, certainly is one thing 
that can be helpful. I don't think it is the sole criteria and 
I don't think it is, in and of itself, is going to make a 
difference.
    We have put in place a strategic----
    Mr. Scott. When you get down to the last few teachers you 
are trying to hire and there is a quality challenge, I mean, if 
you had higher salaries you could attract a better pool of 
candidates, couldn't you?
    Mr. McIntyre. Yes, sir. I think that is--I think that is 
fair to say. I think where that would be valuable is in 
competing with some of the other industries that teachers have 
the opportunities to go into. And we do--we have had a--we have 
put in place a strategic compensation initiative that 
recognizes great performance and provides incentives and 
rewards for great teaching and student outcomes.
    Mr. Scott. Thank you.
    Dr. Cantrell, you mentioned multiple measures for teaching 
and the student component would be part of it. Do you have 
multiple measures for the students, including, as Dr. McIntyre 
mentioned, a growth model rather than a pass-fail model?
    Mr. Cantrell. The MET project looked at two different 
student assessments--the state assessment and a supplemental 
higher-order thinking skills test that was characteristically 
different than the state test and that allowed students to 
demonstrate and answer more complex problems, and we saw that 
the results were similar, independent of which test that we 
used. They both were adequate for identifying teaching 
effectiveness.
    Mr. Scott. One of the problems I see in--we are trying to 
get the best teachers in the most challenging schools. What 
incentive would a teacher have to go into a challenging school, 
because it seems to me if you are going to be based on student 
achievement a bad teacher at a good school would have a better 
chance of keeping a job than a good teacher at a bad school.
    Mr. Cantrell. So what is nice about how these growth models 
work is they don't privilege the status of the student; they 
actually reward a teacher for making progress with the student. 
And so there is no real advantage. It would be very hard for a 
teacher to figure out which student, based on their prior 
scores, is going to grow more, and yet growth is the coin of 
the realm.
    Mr. Scott. Well, in some schools, you know, everybody is 
going to do all right.
    Dr. Watson, do you see that same challenge?
    Mr. Watson. Yes, we have seen that as a challenge, but one 
of the things that we have done in Houston is not only to look 
at just the growth, meaning from our lowest-performing schools 
to our highest-performing. We have looked at our highest-
performing schools and how much growth are they making above 
the grade level. And so when we are looking at growth it is not 
just looking at low student achievement, but if you are already 
at the level, are you 1 or 2 years above that level?
    Mr. Scott. Well, if you have got a classroom where 
everybody knows everybody is going to achieve because the 
parents are helping and everything else in that community, any 
teacher is going to be able to do okay. And so why would a good 
teacher want to go to a bad school where you may get--may have 
a lot of people not achieving?
    Mr. Watson. Well, in the recruitment process one of the 
things that we have found is there are those teachers that have 
that special mission where they do want to work with the most 
underserving kids. We do offer financial incentives as well, 
but most likely those teachers go because of the support of 
administrators and their ability to provide them very good 
feedback to grow.
    Mr. Scott [continuing]. Time for about one more question.
    Mr. Harper, some students are going to be problem students 
for everybody. What does evaluation do to collaboration, where 
a teacher across the hall may notice that a student is 
disruptive, ``Send Johnny over to me and see if I can work with 
him.'' Why would a teacher do that if you are going to get 
gigged and possibly lose your job because Johnny is going to 
bring down your average?
    Mr. Harper. I think any effective teacher will seek out 
resources to make sure that they are behaving appropriately 
inside their own classroom as they are in the classroom across 
the hall, so I don't see behavior management as being something 
that could be detrimental to a teacher's----
    Mr. Scott. Well, if you have a student that you know is 
going to be a problem, why would you invite the student into 
your class to help your colleague across the hall when you 
might be able to do better with that particular student than 
the teacher across the hall when that might affect your 
average?
    Mr. Harper. Because any time you are wanting to build a 
culture inside of a school where all students achieve it is 
incumbent upon you to make sure that all of the--your teachers 
are able to perform at the same level at the higher 
expectation, so it is incumbent upon us to make sure that we 
have that culture in the first place, which is why you have 
local flexibility in developing school performance for our 
teachers to be able to perform.
    Chairman Rokita. Thank you.
    Gentleman's time is expired.
    I would like to thank, again, the witnesses for taking the 
time to testify before the subcommittee today. Really 
appreciate it. Really educational.
    Mrs. McCarthy, do you have any closing remarks?
    Mrs. McCarthy. Thank you.
    And I want to thank all the witnesses. It was very 
informative.
    I always feel like these hearings--we want another hour or 
2 because there are so many questions, but some of the 
questions I have I hopefully I will follow up with asking you, 
and--get back to us.
    But as I said in our opening remarks, we as members in 
Congress are looking for guidance from your insight. You are on 
the ground. You are doing the work that we need to hear about.
    Each of your testimonies have common themes, and I have to 
say, you are all really on the same page. I didn't hear any 
differences whatsoever, which is always a good sign--most 
notably, that teacher effectiveness cannot be evaluated on the 
one dimension, and I think that came across very strongly.
    Students' needs have evolved greatly over time and 
educators have an obligation to identify those needs and 
develop teacher evaluation standards that are frequent and 
diverse in time, and that is the only area that I still wish we 
could get better data to the teacher and to everybody else so 
the students aren't falling apart 3 months, 6 months. Get them 
as early as we can to help them.
    I am looking forward to continuing to work on this issue 
with my colleagues, and it is my sincere hope that our panel 
will continue to share their progress on this issue with the 
subcommittee.
    So, Mr. Chairman, thank you again for calling this hearing. 
I yield back.
    Chairman Rokita. Thank you, Ranking Member McCarthy.
    I agree with the ranking member about what she just said. 
We are looking for guidance and you all provided it. And I am 
going to assume, at least in part, that you are representative 
of your professions in your testimony today.
    And I appreciate your leadership. I think your 
professions--administrators and teachers alike--are unsung 
heroes, and it is almost cliche to say that these days but it 
can't be said enough, in another sense. So thank you very, very 
much.
    Education, I think is the second biggest challenge we have 
as a country and culture today, second only to the 
disintegration of the family unit as a problem that we must 
address. And more and more you are being asked to do both those 
jobs, and I think that is unfair. But that is the reason I want 
to say thank you again for that kind of leadership.
    We continue to learn so much about teacher evaluation in 
the past years and, you know, I think it is time we move 
forward with ESEA reauthorization. This hearing today helped 
us--helped me, at least, as chairman, do that. So I look 
forward to working on and moving such ESEA legislation this 
Congress.
    With that and no further business being before the 
committee, this subcommittee stands adjourned.
    [Question submitted for the record follows:]

                                             U.S. Congress,
                                    Washington, DC, March 19, 2013.
Dr. Steve Cantrell, Bill & Melinda Gates Foundation,
P.O. Box 23350, Seattle, WA 98102.
    Dear Dr. Cantrell: Thank you for testifying at the February 28, 
2013 hearing on ``Raising the Bar: How are Schools Measuring Teacher 
Performance?'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than April 9, 2013 for inclusion in the final hearing record. 
Responses should be sent to Lindsay Fryer or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.
                      chairman todd rokita (r-in)
    1. Dr. Cantrell, we've heard many researchers state that student 
achievement, especially state test results, should not be included in 
teacher evaluation systems because the state tests are ``poor quality. 
What are your thoughts on this? Can student achievement, when weighted 
with multiple measures, provide an accurate picture of a teacher's 
ability?
                 rep. robert c. ``bobby'' scott (d-va)
    2. Well-designed teaching evaluations are an important part of 
ensuring that our nation's children receive high-quality instruction. 
It is also important that we recruit the most talented individuals to 
become teachers in the first place, and one of the most attractive 
features of the teaching profession is the ability to earn tenure after 
years of high-quality performance on the job. Would removing tenure 
have an adverse effect on the process of recruiting new teachers into 
the profession? That is, would highly-qualified individuals be less 
likely to apply to become a teacher if they knew that they could be 
fired at any time?
                                 ______
                                 
                                             U.S. Congress,
                                    Washington, DC, March 19, 2013.
Mr. Emanuel Harper, Herron High School,
7654 Woodmore Trace, Apt E7, Indianapolis, IN 46260.
    Dear Mr. Harper: Thank you for testifying at the February 28, 2013 
hearing on ``Raising the Bar: How are Schools Measuring Teacher 
Performance?'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than April 9, 2013 for inclusion in the final hearing record. 
Responses should be sent to Lindsay Fryer or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.
                      chairman todd rokita (r-in)
    1. Mr. Harper, in your testimony, you state that we need to ``give 
more local flexibility in generating a culture that drives student 
growth.'' Why is providing the decision-making power to those closest 
to students so important?
                 rep. robert c. ``bobby'' scott (d-va)
    1. Well-designed teaching evaluations are an important part of 
ensuring that our nation's children receive high-quality instruction. 
It is also important that we recruit the most talented individuals to 
become teachers in the first place, and one of the most attractive 
features of the teaching profession is the ability to earn tenure after 
years of high-quality performance on the job. Would removing tenure 
have an adverse effect on the process of recruiting new teachers into 
the profession? That is, would highly-qualified individuals be less 
likely to apply to become a teacher if they knew that they could be 
fired at any time?
                                 ______
                                 
                                             U.S. Congress,
                                    Washington, DC, March 19, 2013.
Dr. James P. McIntyre, Jr., Knox County Schools,
P.O. Box 2188, Knoxville, TN 37901.
    Dear Dr. McIntyre: Thank you for testifying at the February 28, 
2013 hearing on ``Raising the Bar: How are Schools Measuring Teacher 
Performance?'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than April 9, 2013 for inclusion in the final hearing record. 
Responses should be sent to Lindsay Fryer or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.
                      chairman todd rokita (r-in)
    1. Dr. McIntyre, in your testimony you mention that your district's 
teacher evaluation system serves as both an accountability mechanism 
and a professional growth tool. We've heard from some organizations 
that teacher evaluation systems are unfair, because they serve dual 
roles. How does your evaluation system serve as both an accountability 
mechanism and a professional growth tool? Is it adequate and fair in 
serving both purposes?
                 rep. robert c. ``bobby'' scott (d-va)
    1. Well-designed teaching evaluations are an important part of 
ensuring that our nation's children receive high-quality instruction. 
It is also important that we recruit the most talented individuals to 
become teachers in the first place, and one of the most attractive 
features of the teaching profession is the ability to earn tenure after 
years of high-quality performance on the job. Would removing tenure 
have an adverse effect on the process of recruiting new teachers into 
the profession? That is, would highly-qualified individuals be less 
likely to apply to become a teacher if they knew that they could be 
fired at any time?
                                 ______
                                 
                                             U.S. Congress,
                                    Washington, DC, March 19, 2013.
Dr. Rodney Watson, Houston Independent School District,
4400 West 18th St., Houston, TX 77092.
    Dear Dr. Watson: Thank you for testifying at the February 28, 2013 
hearing on ``Raising the Bar: How are Schools Measuring Teacher 
Performance?'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than April 9, 2013 for inclusion in the final hearing record. 
Responses should be sent to Lindsay Fryer or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.
                 rep. robert c. ``bobby'' scott (d-va)
    1. Well-designed teaching evaluations are an important part of 
ensuring that our nation's children receive high-quality instruction. 
It is also important that we recruit the most talented individuals to 
become teachers in the first place, and one of the most attractive 
features of the teaching profession is the ability to earn tenure after 
years of high-quality performance on the job. Would removing tenure 
have an adverse effect on the process of recruiting new teachers into 
the profession? That is, would highly-qualified individuals be less 
likely to apply to become a teacher if they knew that they could be 
fired at any time?
                                 ______
                                 
    [Responses to questions submitted follow:]

     Mr. Cantrell's Response to Questions Submitted for the Record

    The Measures of Effective Teaching project demonstrated that states 
should include student assessments as one among multiple measures. 
Schools educate students to learn. Schools measure effective teaching 
for students to learn better. Ideally, each of the multiple measures 
supports this aim. Each measure provides, to teachers and to those who 
support teacher growth, feedback to indicate areas of strength and 
areas to develop. Without a measure of student learning, however, there 
would be no basis for drawing teacher attention and effort to any 
particular aspect of teaching. The point is to identify teaching 
practices that help students learn better.
    Certainly, smart people disagree about the best ways to assess 
learning. State tests are often criticized for being overly narrow 
representations of what students should know and be able to do. To the 
extent this is true, the solution is for the tests to be supplemented, 
not abandoned. There are two ways to accomplish this: The Measures of 
Effective Teaching project did both. First, to the extent that the 
state assessment reflects only part of the outcomes valued by the 
school community, the assessment can be supplemented with other 
reliable assessments. MET administered a supplemental assessment 
designed to assess student's higher order thinking skills, a commonly 
referenced gap in the skills addressed by most state assessments. 
Second, the use of multiple measures, such as classroom observation and 
student surveys, provides additional indicators to augment what the 
state tests measure.
    One important MET finding was when the multiple measures agree 
schools can act with confidence even though each individual measure is 
imperfect. Certainly, we would not advocate using measures that have 
not been validated or are unreliable. But, most current state tests 
have been validated and their reliability is known. The new tests being 
designed to assess progress toward common core state standards will 
likely be even better. Even so, states need not wait, but can use their 
current tests now while the next generation of tests is developed.
    Most teachers come to the profession to help their students 
succeed, not for the employment guarantee of tenure. The most highly-
qualified individuals have many career options outside of teaching. We 
have no evidence that these highly-qualified individuals would find 
teaching less attractive if their continued employment was unrelated to 
their success on the job. We have some limited evidence that among the 
most highly-qualified teachers, those who struggle most in the 
classroom leave voluntarily.\1,2,3\ Unfortunately, we also have 
evidence that many of the most talented teachers leave teaching without 
anyone having asked them to stay or having told them how remarkable 
they were. Furthermore, many of these would have remained in teaching 
had they known.\4\ Having tenure had no impact on their decision to 
stay or go.
---------------------------------------------------------------------------
    \1\ Dan Goldhaber, Betheny Gross, and Daniel Player. 2007. ``Are 
Public Schools Really Losing Their Best? Assessing the Career 
Transitions of Teachers and Their Implications for the Quality of the 
Teacher Workforce.'' CALDER Working Paper No. 12. Washington, D.C.: 
National Center for Analysis of Longitudinal Data in Education 
Research.
    \2\ Eric A. Hanushek, John F. Kain, Daniel M. O'Brien, and Steven 
G. Rivkin. 2005. ``The Market for Teacher Quality.'' NBER Working Paper 
No. 11154. Cambridge, MA: National Bureau of Economic Research, Inc.
    \3\ Donald Boyd, Pamela Grossman, Hamilton Lankford, Susanna Loeb, 
and James Wyckoff. 2009 ``Who Leaves? Teacher Attrition and Student 
Achievement'' CALDER Working Paper No. 23 Washington, D.C.: National 
Center for Analysis of Longitudinal Data in Education Research.
    \4\ TNTP. 2012. The irreplaceables: Understanding the real 
retention crisis in American's urban schools. New York, NY: TNTP
---------------------------------------------------------------------------
    In most school districts, tenure is granted after completing two or 
three years of satisfactory teaching performance. In most districts, 
99% of teachers are designated as satisfactory. This means that tenure 
has been nearly automatic, rather than a reward for high quality 
performance on any valid, objective measure. Tenure is not enough to 
signal success to the ``irreplaceable'' teachers whose internal sense 
of mission requires better indicators of success. A well-designed 
evaluation system does indicate success and, even more importantly, can 
help the most talented individuals mark their progress from novice to 
expert. There is no reason to leave these talented individuals guessing 
as to whether they are helping student learn or what they need to do to 
get better.
                                 ______
                                 

      Mr. Harper's Response to Questions Submitted for the Record

    Providing schools with additional flexibility facilitates decision-
making opportunities that will directly and positively impact student 
achievement. Because teachers are the greatest agents of academic 
growth for students, it follows that they are also most receptive to 
their needs. The farther removed one is from the classroom, the harder 
it becomes to isolate key levers that will dramatically effect positive 
change.
    Teacher retention is another barrier to generating quality schools. 
Providing administrators with flexibility in retaining and releasing 
teachers will ensure that the school keeps and recruits top talent. 
School-based decision making also affords school leaders an opportunity 
to cultivate staff investment in the school. This sense of ownership 
enhances school culture. It also builds trust with community 
stakeholders like parents and the wider community.
    There is a definition of tenure that implies a sense of eventual 
immunity. It connotes protection from critical feedback for the 
duration of a teacher's career. Under this definition tenure becomes a 
race to see who can rest on his or her laurels first. In reality, 
tenure must become a powerful tool to incentivize the teaching 
profession and recognize excellent teaching in the classroom.
    Under this new definition, only the highest performing teachers 
would earn tenure. Part of this measurement would be continually 
meeting high bars in instruction and management. It also recognizes 
that these teachers will continually be internalizing and implementing 
feedback from formal and informal evaluations from various stakeholders 
(school leaders, peers, students, etc.) to close the achievement gap. 
Incumbent upon such an honor would be targeted pay increases and 
additional instructional responsibilities tailored to the teacher's 
strengths. Thus, tenure is not the end-point of the teaching 
profession, but the beginning. Because of its coveted status, tenured 
teachers would strive to keep that honor and become the driving force 
for excellence school-wide.
    Tenure is needed in our schools to reward excellent teachers. 
However, tenure must be the starting point for highly effective 
teachers. Tenure is a needed incentive to the teaching profession if 
structured correctly.
                                 ______
                                 

     Dr. McIntyre's Response to Questions Submitted for the Record

    Following are my responses to the additional questions submitted by 
members of the subcommittee as requested in your letter dated March 19, 
2013.
    Question: Dr. Mcintyre, in your testimony you mention that your 
district's teacher evaluation system serves as both an accountability 
mechanism and a professional growth tool. We've heard from some 
organizations that teacher evaluation systems are unfair, because they 
serve dual roles. How does your evaluation system serve as both an 
accountability mechanism and a professional growth tool? Is it adequate 
and fair in serving both purposes?
    Accountability and professional growth seem to me to be two sides 
of the same coin. I think it is fair, and even important that the 
system serve dual roles. In that way every teacher has an opportunity 
to grow and get better under the rubric, but if they don't * * * that's 
going to surface pretty quickly.
    Honestly, we're very fortunate in Knoxville, the vast majority of 
our teachers do a very good to truly outstanding job in teaching our 
kids, so most of what the evaluation system does is help teachers 
continuously improve. It's a great support mechanism because we don't 
just say ``you're doing a bad job.'' We talk very specifically about 
the areas for refinement, and give specific strategies that the teacher 
can utilize in the classroom.
    But if a teacher in unable or unwilling to grow and get better, and 
they are chronically ineffectual, then the evaluation system does give 
us the evidence that they should perhaps be invited to explore other 
careers.
    In our experience great teachers expect to be held to high 
standards, and they expect their colleagues to be held to high 
standards as well. Tennessee's evaluation system holds all teachers to 
the same high standards. Isn't that the way it should be?
    Some additional thoughts:
    <bullet> Performance Appraisal separate from an on-going 
professional growth model is typically not successful and not 
strategically aligned to the goals of the organization. The appraisal 
becomes an HR compliance exercise rather than an integral part of 
performance management.
    Performance management is ``a continuous process of identifying, 
measuring, and developing the performance of individuals and teams and 
aligning performance with the strategic goals of the organization'' 
(Aguinis, 2009b, p. 2). On the other hand, performance appraisal is the 
depiction of the strengths and weaknesses of employees in a non-
continuous manner, typically just once a year. This process is often 
perceived as a bureaucratic waste of time created by the human resource 
department. (Aguinis, Joo, & Gottfredson, 2011, p. 504)
    So, therefore, teacher evaluation for accountability purposes and 
as a professional growth tool must be inextricably linked in order to 
effectively achieve the goals of both.
    <bullet> The strength of the TEAM/TAP model is the support that 
occurs between formal observations, utilizing instructional coaches, 
lead, master, and mentor teachers, as well as the professional growth 
plan that teachers work with their administrators to design at the 
conclusion of an academic year.
    <bullet> Our multiple measures evaluation tool also include goals 
for student growth that are integrated into the on-going instructional 
improvement structures for the school, like professional learning 
communities (PLCs). This encourages teachers to work together and 
collaboratively plan towards increasing student outcomes.
    <bullet> The administrator's role as an instructional leader should 
include both the evaluation of classroom instruction, in addition to 
providing coaching to support teachers. This is no different than a 
supervisor who also becomes a mentor to individuals whom he or she 
manages. .
    <bullet> In the private sector, this notion of the duality of 
evaluation and professional growth is typically unchallenged. Employees 
have grown accustomed to the evaluation process informing and driving 
their professional development.
    Question: Well-designed teaching evaluations are an important part 
of ensuring that our nation's children receive high-quality 
instruction. It is also important that we recruit the most talented 
individuals to become teachers in the first place, and one of the most 
attractive features of the teaching profession is the ability to earn 
tenure after years of high-quality performance on the job . Would 
removing tenure have an adverse effect on the process of recruiting new 
teachers into the profession? That is, would highly qualified 
individuals be less likely to apply to become a teacher if they knew 
that they could be fired at any time?
    Tenure has been redefined for new teachers in Tennessee as a 
privilege for truly extraordinary teachers rather than a right for all 
teachers, even those who are only marginally effective. Only new 
teachers are subject to the new tenure provisions in the Volunteer 
State, and those coming into the profession today generally understand 
the high expectations and rigorous standards that are necessary in 
order to ensure that our students are prepared for success in today's 
complex and competitive world.
    A few other thoughts:
    <bullet> Tenure is and has always been a mechanism to ensure due 
process rights for teachers in any employment decision. Tenure is not a 
guarantee of job security. It is not a license for unsatisfactory 
performance or other unprofessional behavior. As such, the notion of 
tenure as life-long job protection, though pervasive, is largely 
inaccurate.
    <bullet> Today's workforce has evolved from that of 40 years ago. 
Many researchers say that most will work for 5-10 employers over the 
course of their careers with longevity averaging 5 years or less.
    <bullet> Many of today's new graduates value opportunities for 
promotion and increased compensation (based on performance) over and 
above the potential for long-term service.
    <bullet> In particular, high performing employees value the 
recognition and reward for their work rather than arbitrary tenure 
status.
    <bullet> Moreover, the status and meaning of tenure is diluted when 
it is granted to every employee, without regard to their historical or 
continuing performance.
    <bullet> Since the change of tenure laws in the state of Tennessee 
in 2011, our district has seen no decline in the number of applicants 
for our vacancies nor the number of interns and student teachers who 
are requesting to work in our district. Over the past three years, we 
have averaged about 2,500 new applications for approximately 300 open 
positions annually, and 2012 maintained this trend.
    <bullet> Thus, there is no evidence that change in tenure laws have 
adversely impacted the ability of our district to attract a high 
quality candidate pool.
    I was honored to have the opportunity to share my belief that our 
teacher evaluation system is an important strategy in our efforts to 
improve the quality of public education in Knoxville and across our 
state. Please do not hesitate to contact me if you have additional 
questions or concerns.
            Respectfully Submitted,
                                    James P. McIntyre, Jr.,
                                                    Superintendent.
    Reference: Aguinis, H., Joo, H., & Gottfredson, K. R. (2011). Why 
we hate performance management--And why we should love it. Business 
Horizons, 54, 503-507.
                                 ______
                                 

      Dr. Watson's Response to Questions Submitted for the Record

    In general, we have found there is not much evidence in research to 
support the claim that tenure is an attractive feature of the teaching 
profession; evidence actually suggests that removing tenure would not 
have an adverse effect on recruiting highly qualified individuals into 
the profession, especially if performance-based decisions include the 
ability for great teachers to earn a higher salary, faster, in lieu of 
using resources to provide job security. In a survey of over 6,000 
teachers in Chicago, less than a quarter agreed or strongly agreed that 
``the protections of tenure are part of the reason I became a 
teacher.'' The majority of teachers disagreed with this statement. In a 
survey of teachers in Chicago and in Indianapolis, when faced with 
layoffs during budget cuts to their districts, three-quarters of 
teachers in both districts believe that additional performance-based 
factors should be considered ahead of seniority when making layoff 
decisions. While not a perfect proxy for tenure, if tenure were truly 
an attractive feature of the teaching profession, it would follow that 
these teachers would want seniority to be the primary factor of 
employment decisions.
    Moreover, we cannot assume that the talent pool going into teaching 
today and in years' past will be the same talent pool going into 
teaching tomorrow. We know that today's generation of college graduates 
have a vastly different value proposition for what is important for 
them in a job and in a career. Tenure status is not on their list.
    <bullet> Only 9% of top-third college students are planning on 
going into teaching.
    <bullet> The most important job attributes for the other 91% 
include: the quality of co-workers, prestige, a challenging work 
environment, and high quality training. Teaching lags far behind other 
professions on these attributes for this 91% of top-third college 
graduates.
    <bullet> Of the 10 top attributes in an attractive job, 
compensation factors make up 4 of the 10. Again, tenure/job security is 
not on the list.
    Overall, the removal of tenure would not adversely affect the 
recruitment of effective teachers if other measures of support 
including compensation, feedback, and support and development are in 
place at the school level.
                                 ______
                                 
    [Whereupon, at 10:20 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
